OFFICES, BOARDS AND DIVISIONS

ANNUAL FINANCIAL STATEMENTS

      FISCAL YEAR 2012

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 13-12

             January 2013

            OFFICES, BOARDS AND DIVISIONS

            ANNUAL FINANCIAL STATEMENTS

                   FISCAL YEAR 2012


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
Offices, Boards and Divisions (OBDs) for the fiscal years (FY) ended
September 30, 2012, and September 30, 2011. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the OBDs’ audit
in accordance with auditing standards generally accepted in the United
States of America. The audit resulted in an unqualified opinion on the
FY 2012 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with
U.S. generally accepted accounting principles. For FY 2011, the OBDs also
received an unqualified opinion on its financial statements (OIG Report
No. 12-13).

       KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. The auditors identified one
significant deficiency in the FY 2012 Independent Auditors’ Report on
Internal Control over Financial Reporting. The significant deficiency related
to inadequate accounting and reporting of internal use software project
costs. Specifically, financial and management controls are not adequate to
ensure that the compilation of internal use software cost data submitted for
capitalization is in accordance with the applicable generally accepted
accounting principles, and that recorded amounts are proper, accurate, and
complete.

      No instances of non-compliance or other matters that are required to
be reported under Government Auditing Standards were identified during the
audit in the FY 2012 Independent Auditors’ Report on Compliance and Other
Matters. Additionally, KPMG LLP’s tests disclosed no instances in which the
OBDs’ financial management systems did not substantially comply with the
Federal Financial Management Improvement Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with Government Auditing
Standards, was not intended to enable us to express, and we do not



                                     -i-
express, an opinion on the OBDs’ financial statements, conclusions about the
effectiveness of internal control, conclusions on whether the OBDs’ financial
management systems substantially complied with the Federal Financial
Management Improvement Act of 1996, or conclusions on compliance with
laws and regulations. KPMG LLP is responsible for the attached auditors’
reports dated November 5, 2012, and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did
not comply, in all material respects, with auditing standards generally
accepted in the United States of America.




                                    - ii -
                OFFICES, BOARDS AND DIVISIONS

                ANNUAL FINANCIAL STATEMENTS

                       FISCAL YEAR 2012


                          TABLE OF CONTENTS


                                                                              PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ................................................ 35


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 37


  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 43


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS.................................................... 46


  CONSOLIDATED STATEMENTS OF NET COST ...................................... 47


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 48


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 50


  COMBINED STATEMENTS OF CUSTODIAL ACTIVITY............................. 51


  NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS ........................... 52


REQUIRED SUPPLEMENTARY INFORMATION


  COMBINING STATEMENTS OF BUDGETARY RESOURCES ...................... 82


OTHER ACCOMPANYING INFORMATION


  COMBINED SCHEDULE OF SPENDING ................................................ 87


APPENDIX


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

    OF ACTIONS NECESSARY TO CLOSE THE REPORT ........................... 91

This page intentionally left blank.
Management’s Discussion and Analysis


              Unaudited





              -1-
This page intentionally left blank. 





            -2-
Management’s Discussion and Analysis (MD&A)
(unaudited)

This report presents the Annual Financial Statements of the Offices, Boards and Divisions (the OBDs) for the
fiscal years (FY) ended September 30, 2012 and 2011. In accordance with the Government Management
Reform Act (GMRA) of 1994, the Attorney General prepares, and submits to the Director of the Office of
Management and Budget (OMB), audited financial statements covering the accounts and activities of the
Department of Justice (DOJ or the Department). The OBDs entity is comprised of legal, executive, and
management organizations. Collectively, these organizations comprise one of the DOJ financial statement
reporting entities.

MISSION
The overall mission of the Department, as reflected in its new Strategic Plan for the FYs 2012-2016, is stated
as follows:



 "...to enforce the law and defend the interests of the United States according to the law; to
ensure public safety against threats foreign and domestic; to provide federal leadership in
preventing and controlling crime; to seek just punishment for those guilty of unlawful
behavior; and to ensure fair and impartial administration of justice for all Americans."



The OBDs play a major role in carrying out this mission. The OBDs entity is diverse, with responsibility for
performing a broad array of program activities. The OBDs represent the American people in all legal matters
involving the United States Government. These legal activities include ensuring fair and healthy competition
of business; safeguarding consumers; enforcing drug and immigration laws; and protecting citizens through
effective law enforcement. The OBDs also supervise the administration of bankruptcy cases in the federal
Bankruptcy Courts; uphold the civil rights of all Americans; enforce laws protecting the environment;
represent the United States in civil and criminal litigation; develop and enforce criminal statutes; conduct
criminal investigations and coordinate law enforcement matters with foreign governments; and represent the
United States in civil and criminal litigation arising from internal revenue laws. Additionally, the National
Security Division (NSD) consolidates the Department’s primary national security elements within a single
Division to ensure greater coordination and unity of purpose between prosecutors and law enforcement
agencies as well as intelligence attorneys and the Intelligence Community.

The OBDs conduct all suits in the Supreme Court in which the United States is concerned. Further, the OBDs
represent the Government in legal matters, including the rendering of advice and opinions, upon request, to the
President and to the heads of executive departments and agencies.

In addition to legal activities, the OBDs provide leadership and assistance to state, local, and tribal
governments through the Office of Community Oriented Policing Services (COPS). The OBDs include the
DOJ executive leadership offices, which assist the Attorney General in the overall supervision and
management of DOJ programs, and provide executive assistance and support to the 94 Offices of the United
States Attorneys (USA). The OBDs perform the management, policy development, and advisory functions
that support DOJ budgeting and financial management, personnel management, information technology
management, equal employment opportunity, and resource planning. Finally, the OBDs manage and oversee
federal prisoner detention by establishing a secure and effective operating environment that drives efficient
and fair expenditure of appropriated funds. Administratively, the OBDs manage the Working Capital Fund
(WCF), which is a revolving fund that is authorized by law to finance a cycle of operations where the costs for




                                                  -3-
goods or services provided are charged back to the recipient. The funds received are available to continue
operations and for future investments. In many ways, the WCF has characteristics typical of a business
enterprise.

ORGANIZATIONAL STRUCTURE
The following organization chart shows the organizational structure of the OBDs entity (the OBDs are shown
in colored or shaded boxes) as it relates to the rest of the Department (non-OBDs are shown in boxes that are
not colored or shaded). The Justice Management Division (JMD) oversees the administrative operations of the
WCF.




FINANCIAL STRUCTURE
The OBDs receive funding in over 130 different annual, multi-year, and no-year appropriations. Generally,
annual appropriations provide for most, but not all, salaries and expenses, and core program activities, while
multi-year and no-year provide for a wide variety of specialized programs, activities, and functions. Individual
OBDs components receive allotments and sub-allotments, as part of DOJ funds control. The OBDs financial
statements report the consolidated assets, liabilities, and results of the OBDs operations.




                                                  -4-
ANALYSIS OF FINANCIAL STATEMENTS

The OBDs financial statements received an unqualified audit opinion for the thirteenth straight year. These
statements have been prepared from the accounting records of OBDs in conformity with the U.S. generally
accepted accounting principles and OMB Circular A-136, Financial Reporting Requirements. These
principles are the standards prescribed by the Federal Accounting Standards Advisory Board (FASAB).

Highlights of the financial and budgetary information presented in the financial statements are shown below:

Assets – The OBDs Consolidated Balance Sheet as of September 30, 2012 shows $6.6 billion in total assets,
an increase of $303 million from the FY 2011 total assets of $6.3 billion. This increase is primarily related to
an increase in Debt Collection Management (DCM) collection activity. Fund Balance with U.S. Treasury was
$5.7 billion as of September 30, 2012, which represents 86 percent of total assets.

Liabilities – Total OBDs liabilities were $6.0 billion as of September 30, 2012, an increase of $3.4 billion
from the previous year’s total liabilities of $2.6 billion. This increase can be attributed mostly to the
reactivation of the September 11th Victim Compensation Fund of 2001 and the recognition of related unfunded
liabilities.

Net Cost of OBDs Operations – The Consolidated Statement of Net Cost presents the OBDs gross and net
cost for the Department’s three strategic goals. The net cost of OBDs operations totaled $10.2 billion for the
fiscal year ended September 30, 2012, an increase of $2.8 billion from the previous year’s net cost of
operations of $7.4 billion. This change is primarily related to the reactivation of the September 11th Victim
Compensation Fund of 2001 and the recognition of related unfunded expenses.

Budgetary Resources – The OBDs Combined Statement of Budgetary Resources shows $10.4 billion in total
budgetary resources, an increase $43 million from FY 2011 total budgetary resources of $10.4 billion. The
increase is primarily due to an increase in budget authority.

Net Outlays – The OBDs Combined Statement of Budgetary Resources shows $6.2 billion in net outlays for
the fiscal year ended September 30, 2012, a decrease of $605 million from the previous year’s total net outlays
of $6.8 billion.

Custodial Collections – The OBDs Combined Statement of Custodial Activity shows $7.0 billion in total
custodial collections for the fiscal year ended September 30, 2012, an increase of $1.7 billion from the
FY 2011 total custodial collections of $5.3 billion. This increase is directly related to an increase in DCM
Collections related to the delinquent federal civil debts as required by the Federal Debt Recovery Act of 1986.




                                                  -5-
PERFORMANCE INFORMATION

The OBDs resource and performance information is presented on the following pages. The performance
information is organized by Strategic Goal and Strategic Objective and is consistent with the Department’s
Government Performance and Results Act (GPRA/GPRA Modernization Act) performance plans.

The OBDs Consolidated Statements of Net Cost for FY 2012 and FY 2011 are presented using the three
Strategic Goals as contained in the Strategic Plan for FYs 2012-2016. The Strategic Plan is available on the
Internet at DOJ’s website: http://www.justice.gov. The three Strategic Goals are listed in Table 2.

Because of the diversity of the OBDs components and their individual programs and missions, the OBDs are
involved in all three DOJ Strategic Goals. Table 1 and Table 2, along with associated graphs, provide an
overview of the sources of OBDs resources and how they were spent (by goal).




                                                  -6-
                                   Table 1. Sources of OBDs Resources
                                             (Dollars in Thousands)
                                                                                           Percent
                        Source                               FY 2012        FY 2011        Change
Earned Revenue                                                $1,265,600     $1,322,329         -4.3%
Budgetary Financing Sources
  Appropriations Received                                      6,920,135      6,973,745         -0.8%
  Appropriations Transferred In/Out                             (28,074)      (187,823)         85.1%
  Nonexchange Revenues                                             4,085          1,070        281.8%
  Transfers In/Out Without Reimbursement                         109,395        113,735         -3.8%
  Other Adjustments and Other Budgetary Financing
 Sources                                                         (80,561)      (49,664)        -62.2%
Other Financing Sources
  Transfers In/Out Without Reimbursement                        (36,621)       (53,304)         31.3%
  Imputed Financing from Costs Absorbed by Others                176,399        221,611        -20.4%
                                                    Total     $8,330,358     $8,341,699         - 0.1%



                                 Table 2. How OBDs Resources are Spent
                                             (Dollars in Thousands)
                                                                                           Percent
                 Strategic Goal (SG)                        FY 2012         FY 2011        Change
 SG 1   Prevent Terrorism and Promote the Nation’s
        Security Consistent with the Rule of Law
                                              Gross Cost        $381,836       $378,325
                                  Less: Earned Revenue          (116,119)      (116,209)
                                                Net Cost          265,717        262,116        1.4%
 SG 2   Prevent Crime, Protect the Rights of the
        American People, and Enforce Federal Law
                                              Gross Cost       $8,591,116    $5,858,718
                                  Less: Earned Revenue          (924,300)    (1,002,609)
                                                Net Cost        7,666,816      4,856,109       57.9%
 SG 3   Ensure and Support the Fair, Impartial,
        Efficient, and Transparent Administration of
        Justice at the Federal, State, Local, Tribal,
        and International Levels
                                              Gross Cost       $2,473,536     $2,441,919
                                  Less: Earned Revenue          (225,181)      (203,511)

                                               Net Cost         2,248,355      2,238,408        0.4%

                                      Total Gross Cost         11,446,488      8,678,962
                                Total Earned Revenue          (1,265,600)    (1,322,329)
                           Total Net Cost of Operations        10,180,088    $7,356,633        38.4%




                                                    -7-
                          Comparison of Net Costs
               (Dollars in Thousands) - FY 2012 and FY 2011



$4,150,000




$3,150,000




$2,150,000




$1,150,000




 $150,000
               SG1                    SG2                      SG3
FY 2011      $262,116              $4,856,109                $2,238,408
FY 2012      $265,717              $7,666,816                $2,248,355




                     FY 2012 Net Costs by S trate gic Goal


                                                 S G3
                                                22 .1%



                                                                          SG1
                                                                          2.6%




                          SG 2
                         75.3%




                                   -8-
2012 Financial Highlights

A brief description of some of the major costs included in each Strategic Goal follows.

    	 Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security Consistent with the Rule
       of Law includes resources dedicated to counterterrorism initiatives in the National Security Division,
       the United States Attorneys’ offices and Criminal Division.

    	 Strategic Goal 2, Prevent Crime, Protect the Rights of the American People, and Enforce
       Federal Law includes the functions of the legal divisions, the U.S. Attorneys, the U.S. Trustees, and
       the Organized Crime Drug Enforcement Task Forces program. Goal 2 also includes the Community
       Oriented Policing Services and the administrative costs of the Office on Violence Against Women.

    	 Strategic Goal 3, Ensure and Support the Fair, Impartial, Efficient, and Transparent
       Administration of Justice at the Federal, State, Local, Tribal, and International Levels includes
       the Office of the Federal Detention Trustee, the U.S. Parole Commission, and the Executive Office for
       Immigration Review.


Data Reliability and Validity

The OBDs view data reliability and validity as critically important in the planning and assessment of our
performance. As such, this document includes a discussion of data validation, verification, and any identified
data limitations for each performance measure presented. Each Reporting Component ensures that data
reported meets the following criteria:

        At a minimum, performance data are considered reliable if transactions and other data that
        support reported performance measures are properly recorded, processed, and summarized to
        permit the preparation of performance information in accordance with criteria stated by
        management. Performance data need not be perfect to be reliable, particularly if the cost and
        effort to secure the best performance data possible will exceed the value of any data so
        obtained.




                                                  -9-
FY 2012 REPORT ON SELECTED ACCOMPLISHMENTS

STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security Consistent with the Rule of
Law

2.6% of OBDs Net Costs support this Goal.

 STRATEGIC OBJECTIVE 1.1: Prevent, disrupt, and defeat terrorist operations before they occur.

 STRATEGIC OBJECTIVE 1.2: Prosecute those involved in terrorist acts. 

 STRATEGIC OBJECTIVE 1.3: Combat espionage against the United States. 





 Investigate and Prosecute Terrorist Acts

Background/Program Objectives: Through both criminal and national security investigations, DOJ works to
arrest and prosecute or deport terrorists and their supporters and to disrupt financial flows that provide
resources to terrorist operations. These investigations enable the Department to gather information, punish
terrorists, develop and solidify relationships with critical partners, and maintain a presence visible to both
potential terrorists and the American public. Within the OBDs, both the National Security Division and the
United States Attorneys are heavily involved in the DOJ’s counterterrorism mission. The United States
Attorneys’ offices, the National Security Division, and the Criminal Division focus on the development and
prosecution of terrorism and cyberterrorism cases, and the coordination of information-sharing and
partnerships. The 94 United States Attorneys’ offices are part of a national network that coordinates the
dissemination of information and the development of a preventive, investigative and prosecutorial strategy
among federal law enforcement agencies, primary state and local police forces, and other appropriate state
agencies in each of the 94 federal judicial districts. The National Security Division coordinates
counterterrorism issues with the U.S. Attorneys’ offices, other Executive Branch agencies, and multilateral
organizations.

Performance Measure: There are no performance measures being reported for this strategic goal.

        .




                                                - 10 -
STRATEGIC GOAL 2: Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law

75.3% of OBDs Net Costs support this Goal.

  STRATEGIC OBJECTIVE 2.1: Combat the threat, incidence, and prevalence of violent crime.

  STRATEGIC OBJECTIVE 2.2: Prevent and intervene in crimes against vulnerable populations; uphold 

  the rights of, and improve services to, America’s crime victims.

  STRATEGIC OBJECTIVE 2.3: Combat the threat, trafficking, and use of illegal drugs and the diversion

  of licit drugs.

  STRATEGIC OBJECTIVE 2.4: Combat corruption, economic crimes, and international organized crime. 

  STRATEGIC OBJECTIVE 2.5: Promote and protect Americans’ civil rights. 

  STRATEGIC OBJECTIVE 2.6: Protect the federal fisc and defend the interests of the United States.




Successfully Litigate Cases

Background/Program Objectives: Representing the rights and interests of the American people is a top
priority for the Department of Justice. Among the DOJ components sharing responsibilities to achieve this
goal are the Executive Office of the U.S. Attorneys, the Antitrust, Civil, Civil Rights, Criminal, Environment
and Natural Resources, and Tax Divisions.

There are 94 Offices of the U.S. Attorneys located throughout the United States and its territories. Each U.S.
Attorney serves as the chief federal law enforcement officer within his or her judicial district and, as such, is
responsible for the prosecution of criminal cases brought by the federal government; the litigation and defense
of civil cases in which the United States is a party; the handling of criminal and civil appellate cases before
United States Courts of Appeal; and the collection of civil and criminal debts and restitutions owed the federal
government which are administratively uncollectable.

Additionally, the Department has litigators that specialize in the areas of: preserving a competitive market
structure; defending the public fisc against unwarranted claims; protecting civil rights; enforcing federal civil
and criminal statutes; safeguarding the environment; and administrating internal revenue laws.

The Antitrust Division (ATR) promotes and protects the competitive process – and the American economy –
through the enforcement of antitrust laws. These laws apply to virtually all industries and to every level of
business, including manufacturing, transportation, distribution, and marketing.

The Civil Division (CIV) defends challenges to Congressional statutes, Presidential actions, national security
issues, health care programs, vaccine injury claims, and energy policies; pursues violators of immigration and
consumer protection laws; and handles thousands of affirmative and defensive cases with billions of dollars at
issue related to accident and liability claims, natural disasters and other unprecedented events. CIV also
handles commercial issues such as bankruptcy, contract disputes, banking, insurance, patents, fraud, and debt
collection and administers the Radiation Exposure Compensation Program and the newly re-opened
September 11th Victim Compensation Fund.

The Civil Rights Division (CRT) enforces federal statutes prohibiting discrimination in education, religion,
employment, credit, housing fair lending, public accommodations and facilities, conditions of confinement in
state and locally operated institutions, national origin, voting, retaliation based on military service, and certain
federally funded and conducted programs. Additionally, CRT enforces criminal civil rights responsibilities for
human trafficking and involuntary servitude statutes; acts of racial, ethnic, sexual orientation, gender identity,
disability or religious violence; “color of law” offenses by local and federal law enforcement officials; and




                                                   - 11 -
conspiracies to interfere with federally protected rights. CRT also enforces the criminal and civil provisions to
protect the rights of people to use the services of reproductive health clinics free from interference.

The Criminal Division (CRM) develops, enforces, and supervises the application of all federal criminal laws
(except those specifically assigned to other divisions). The mission of the CRM is to identify and respond to
critical and emerging national and international criminal threats, and to lead the enforcement, regulatory, and
intelligence communities in a coordinated, nationwide response to reduce those threats. The Division engages
in several functions vital to achieving its mission: investigating and prosecuting significant criminal cases and
matters; providing expert legal advice and training; providing critical law enforcement tools (e.g., Title III
wiretaps); and forging global law enforcement partnerships.

The Environment and Natural Resources Division (ENRD) brings cases against those who violate the nation's
civil and criminal pollution-control and wildlife protection laws. Additionally, ENRD defends environmental
challenges to government programs and activities and represents the U.S. in matters concerning the
stewardship of the nation's natural resources and public lands. In addition, ENRD litigates cases concerning
Indian rights and claims.

The Tax Division's (TAX) mission is to enforce the nation’s tax laws fully, fairly, and consistently, through
both criminal and civil litigation, in order to promote voluntary compliance with the tax laws, maintain public
confidence in the integrity of the tax system, and promote the sound development of the law.

Performance Measure: Percent of Cases Favorably Resolved

FY 2012 Target:
Criminal Cases: 90%
Civil Cases: 80%
FY 2012 Actual:
Criminal Cases: 92%
Civil Cases: 81%

Discussion of FY 2012 Results: The Department exceeded its target for this performance measure. The
following are highlights of the accomplishments achieved by relevant components in FY 2012.

The U.S. Attorneys continued its efforts combating fraud with its Financial Fraud Enforcement Task Force and
94 regional mortgage fraud task forces and working groups, together with targeted financial fraud training
provided at the National Advocacy Center including seminars in the areas of mortgage fraud, bank fraud,
health care fraud, and securities fraud. Some highlights of these efforts include the following: On February 1,
2012, David Higgs, Managing Director at Credit Suisse Group, and Salmaan Siddiqui, Vice President in the
Investment Banking Division, plead guilty in the Southern District of New York to failing to mark to market
the fair value of Residential Mortgage backed Securities and Commercial Mortgage backed Securities assets,
which contributed to a $2.65 billion write down in Credit Suisse's reported net income, approximately $540
million of which was attributable to defendants' conduct. On June 4, 2012, in the District of New Jersey,
Matthew Kluger, a lawyer who fed inside information to a professional stock trader in a 17-year scheme that
netted those millions, was sentenced to 12 years in prison. This is the longest sentence ever handed down in
an insider trading case. Stock trader Garrett D. Bauer was sentenced to 108 months in prison for his role in the
scheme. On July 2, 2102, GlaxoSmithKline (GSK) agreed to plead guilty and to pay $3 billion to resolve its
criminal and civil liability arising from the company’s unlawful promotion of certain prescription drugs. The
resolution is the largest health care fraud settlement in U.S. history and the largest payment ever by a drug
company. GSK agreed to plead guilty to a three-count criminal information, including two counts of
introducing misbranded drugs, Paxil and Wellbutrin, into interstate commerce and one count of failing to
report safety data about the drug Avandia to the Food and Drug Administration. Under the terms of the plea
agreement, GSK will pay a total of $1 billion, including a criminal fine of $956,814,400 and forfeiture in the
amount of $43,185,600. GSK will also pay $2 billion to resolve its civil liabilities with the federal government




                                                  - 12 -
under the False Claims Act, as well as the states. In May 2012, Global Health Care Company Abbott
Laboratories Inc. plead guilty and agreed to pay $1.5 billion to resolve its criminal and civil liability arising
from the company’s unlawful promotion of the prescription drug Depakote for uses not approved as safe and
effective by the Food and Drug Administration. The resolution – the second largest payment by a drug
company – includes a criminal fine and forfeiture totaling $700 million and civil settlements with the federal
government and the states totaling $800 million. Abbott also will be subject to court-supervised probation and
reporting obligations for Abbott’s Chief Executive Officer and Board of Directors.

The ATR obtained $1.1 billion in criminal fines in FY 2012 against antitrust violators. The Division's
investigations into the liquid crystal displays (LCDs) and auto parts industries yielded significant restitution
and fines which helped fund the Department's Crime Victims Fund. In addition, the Division continued its
work with the Financial Fraud Enforcement Task Force and its efforts to wage an aggressive, coordinated and
proactive effort to investigate and prosecute financial crimes. On the civil side, the Division was successful in
protecting competition and U.S. consumers by challenging proposed mergers and agreements in areas as
diverse as telecommunications, health care and tax preparation software.

In FY 2012, CIV defeated billions of dollars in unmeritorious claims, in addition to the successful defense of
suits filed against the government as a result of federal policies, laws, and involvement in commercial
activities, domestic and foreign operations, entitlement programs, law enforcement initiatives, military actions,
and counterterrorism efforts. CIV also pursued affirmative litigation, bringing suits on behalf of the United
States, which resulted in the return of billions of dollars to the Treasury, Medicare, and other entitlement
programs. This year alone, the Division, working with the U.S. Attorneys, recovered a record-high amount of
over $4.8 billion as a result of its aggressive efforts in fighting health care, mortgage, and procurement fraud.

The CRT reached the Nation’s largest-ever fair lending settlement on behalf of minorities who were steered
discriminatorily towards subprime loans, and negotiated $25 billion in settlements with the Nation’s five
largest mortgage servicers as part of the enforcement of mortgage protections for U.S. service members. CRT
achieved both a record monetary recovery by the United States in a disability-based housing discrimination
case, and a record monetary recovery for sexual harassment in a suit brought under the Fair Housing Act. As
part of its work to protect vulnerable populations, CRT has convicted the most persons on hate crimes in over
a decade, and charged the most defendants on human trafficking offenses in the history of the Division. CRT
has also filed record numbers of criminal police misconduct cases. In New Orleans, CRT conducted one of the
most extensive reviews ever of a law enforcement agency, and is now working to develop a comprehensive
blueprint for sustainable reform of the police department. A similarly extensive review has been completed in
Puerto Rico. CRT is committed to investigating voting irregularities and monitoring voter registration
requirements to ensure that the vote of every American is counted, including military personnel, their families,
and civilian personnel working overseas. CRT’s determined enforcement of the Supreme Court’s decision in
Olmstead v L.C., led to landmark settlements with Virginia, Delaware, and Georgia, that will allow thousands
of disabled citizens to receive community-based services.

The CRM prosecuted and achieved favorable dispositions in FY 2012 in cases covering a wide range of
complex case law. For example, in a shared case with the U.S. Attorney’s Office for the Southern District of
Texas, the Division successfully prosecuted Robert Allen Stanford for a twenty year, $7.2 billion Ponzi
scheme centering around an offshore bank, which Stanford owned and operated in Antigua and Barbuda.
Stanford was convicted and received a 110-year sentence. The Division was also instrumental in prosecuting
the New England La Cosa Nostra (LCN) leadership in Providence, RI, which resulted in ten defendants being
charged with racketeering conspiracy and extortion offenses. A total of ten defendants pleaded guilty,
including two successive LCN bosses. Lastly, the Barclays Bank PLC, a financial institution headquartered in
London, has entered into an agreement with the Division to pay a $160 million penalty to resolve violations
arising from Barclays’s submissions for the London InterBank Offered Rate (LIBOR) and the Euro Interbank
Offered Rate (EURIBOR), which are benchmark interest rates used in financial markets around the world.




                                                  - 13 -
The ENRD continued to enforce the Clean Air Act. ENRD and the Environmental Protection Agency (EPA)
reached an innovative agreement in April 2012 with Ohio-based Marathon Petroleum Company that already
has significantly reduced air pollution from all six of the company’s petroleum refineries. In a first for the
refining industry, Marathon has agreed to install state-of-the-art controls on waste combustion devices known
as flares and to cap the volume of waste gas sent to flares. The settlement is part of EPA’s national effort to
reduce air pollution from refinery, petrochemical, and chemical flares. When fully implemented, the
agreement is expected to reduce harmful air pollution by approximately 5,400 tons per year and result in future
cost savings for the company. The agreement, accompanied by a $460,000 civil penalty, resolves Marathon’s
alleged violations of the Clean Air Act. Marathon also will spend an as yet undetermined sum to comply with
the flaring caps required in the consent decree. Under the agreement, Marathon will also implement a project
at its Detroit, Michigan refinery to remove another 15 tons per year of VOCs and another one ton per year of
benzene from the air. At an estimated cost of $2.2 million, Marathon will install controls on numerous sludge
handling tanks and equipment. Marathon’s six refineries, which are located in Robinson, Illinois; Catlettsburg,
Kentucky; Garyville, Louisiana; Detroit, Michigan; Canton, Ohio; and Texas City, Texas, have a capacity of
more than 1.15 million barrels per day.

One of the Tax Division’s top litigation priorities continues to be the concerted civil and criminal effort to
combat the serious problem of non-compliance with our tax laws by US taxpayers using secret offshore
accounts – a problem that a 2008 Senate report concluded costs the US Treasury at least $100 billion
annually. As part of the deferred prosecution agreement the Tax Division negotiated in 2009 with UBS
Switzerland’s largest bank, as well as a 2009 agreement negotiated among the US, UBS, and the Swiss
government to settle a civil summons enforcement proceeding brought by the Tax Division, the IRS continues
to receive account information about thousands of the most significant tax cheats among the US taxpayers who
maintain secret Swiss bank accounts. The prosecution results so far have been encouraging: To date,
approximately 150 grand jury investigations of offshore-banking clients have been initiated, of which 47 cases
have been charged, with 38 guilty pleas having been entered, 3 convicted after trial (two of whom have been
sentenced, with each receiving a 10-year prison sentence), and 6 awaiting trial. A number of facilitators who
helped clients hide assets offshore have been indicted, resulting in 19 bankers, 8 advisors, and 2 attorneys
being charged and awaiting trial; one advisor and one banker have been convicted and sentenced. One Swiss
bank, Wegelin and Co., has been indicted. The other banks implicated include not only UBS, but another
international Swiss bank, regional Swiss banks, an Israeli bank and HSBC India. In addition, grand jury
investigations have been opened into additional offshore banks across the world, and the Division obtained a
court decision allowing the IRS to summon additional account information from HSBC Bank. The Division
also ensures that the public is aware of the offshore initiative. Indeed, the IRS credits the publicity
surrounding this initiative with prompting a huge increase in the number of taxpayers who have “come in from
the cold” and voluntarily disclosed to the IRS their previously hidden foreign accounts. Nearly 18,000 US
taxpayers made voluntary disclosures in the 18-month period concluding February, 2011 – in contrast to fewer
than 100 in a typical year – and made $2.2 billion in payments to the IRS. Another 12,000 US taxpayers
disclosed their accounts under the 2011 Offshore Voluntary Disclosure Initiative (which ended September 9,
2011) and have made $500 million in payments to the IRS so far.




                                                 - 14 -
                                        Pe rc en t of C as es Fa vo ra bly R e so lv e d

                  10 0%

                       7 5%

                       5 0%

                       2 5%

                        0%
                                                                                                     F Y12    FY12
                              FY0 3   F Y04   F Y05   F Y06   FY07   FY0 8   FY0 9   F Y10   F Y11
                                                                                                      Tg t.   A ct .
              Crim in al      9 2%    91%     91%     92%     92 %   9 2%    9 2%    94%     93%     90%      92%
              Civi l          8 7%    85%     84%     83%     83 %   7 9%    8 3%    85%     85%     80%      81%




Data Definition: Cases favorably resolved include those cases that resulted in court judgments favorable to
the government, as well as settlements. For antitrust-related merger cases, favorably resolved data includes:
abandoned mergers, mergers “fixed,” or mergers with consent decrees. Non-merger cases favorably resolved
include instances where practices changed after the investigation and complaints filed with consent decrees.
The data set includes non-appellate cases closed during the fiscal year.

Data Collection and Storage: Data are currently captured within each component’s automated case
management system and companion interface systems. Currently, cases worked on by more than one
component are included in the totals from CRM, CRT, ENRD, and the Executive Office of the U.S. Attorneys
(EOUSA). Also, the court’s disposition date is used for reporting purposes for ATR, CIV, CRM, CRT, and
ENRD; however, EOUSA and TAX use the date entered into their current case management system.
Additionally, CIV counts at the party level; CRM, ENRD, and EOUSA count cases at the defendant level;
CRT and TAX count Civil and Criminal cases. Lastly, ATR includes Criminal, Civil Merger, and Civil Non-
Merger; ENRD includes affirmative, defensive, criminal, and condemnation cases in their totals.

Data Validation and Verification: Each component implements their individual methodology for verifying
data; however, in general, case listings and reports are reviewed by attorney managers for data completeness
and accuracy on a routine basis. Batch data analysis and ad hoc reviews are also conducted.

Data Limitations: Data quality suffers from the lack of a single DOJ case management system and a
standardized methodology for capturing case related data. Due to the inherent variances in data collection and
management, cases may refer to cases or individuals. In addition, due to reporting lags, case closures for any
given year may be under or over-reported. Lastly, EOUSA data does not include information for the month of
September 2005 for the Eastern District of Louisiana due to Hurricane Katrina.




                                                       - 15 -
 Protect Vulnerable People

Background/Program Objectives: The abuse, neglect, exploitation, and trafficking, including sexual abuse, of
children, the elderly, and other vulnerable populations, causes irrevocable harm to victims and society.
Ensuring that our children, seniors, and all citizens can live without being disturbed by sexual trauma,
exploitation, or human trafficking are more than criminal justice issues, they are societal and moral issues.
Despite efforts to date, the threat of these crimes remains very real. In the broadest terms, the goal of the
Department is to prevent child sexual exploitation, elder abuse, hate crimes, and human trafficking from
occurring in the first place, in order to protect every person from the physical and mental traumas associated
with these crimes.

Performance Measure: NEW MEASURE: Number of Matters/Investigations of Child Sexual Exploitation
and Human Trafficking Resolved
       FY 2012 Target: 4,938 (Baseline)
       FY 2012 Actual: 4,348

Discussion of FY 2012 Results: The Department did not meet the target for FY 2012. However, the
following are highlights of some of the accomplishments in FY 2012.

In the U.S. Attorney’s Office Eastern District of Pennsylvania, Omelyan Botsvynyuk was sentenced to life
plus 20 years for operating a human trafficking organization that smuggled young Ukrainian immigrants into
the United States forcing them to work in a cleaning business he ran with his brother Stepan, who was also
convicted. Both defendants, along with three other brothers (two awaiting extradition from Canada and one a
fugitive), illegally smuggled Ukrainian workers into the country and promised them jobs with good pay.
However, once here, the brothers controlled the workers through physical force, threats of force, sexual
assault, control of the workers’ documents, debt bondage, and extortion of their families in the Ukraine in
order to keep them in involuntary servitude. On September 6, 2012, in the Western District of Louisiana, John
Wyss, aka “Bones,” 55, of Monroe, Wisconsin, was sentenced to life in prison for his participation in an
international criminal network known as Dreamboard, a private, members-only, online bulletin board that was
created and operated to promote pedophilia, encourage the sexual abuse of very young children, and promote
the creation and dissemination of graphic images and videos of child sexual abuse throughout the world. Wyss
was convicted at trial of one count of engaging in a child exploitation enterprise, one count of conspiracy to
advertise child pornography, and one count of conspiracy to distribute child pornography. A total of 72
individuals, including Wyss, have been charged for their participation in Dreamboard. On June 27, 2012, in
the District of Connecticut, Jesse Osmun, 32, of Milford, Connecticut, pleaded guilty to one count of traveling
from the United States to South Africa and engaging in illicit sexual conduct with children. Osmun sexually
abused four minor girls while he was a volunteer with the U.S. Peace Corps in South Africa. On October 10,
2012, Osmun was sentenced to 15 years’ imprisonment, followed by 10 years of supervised release.

The CRM announced in May 2012 that Michael Wayne Wooten, a former security officer in the Birmingham
City School System and a substitute bus driver for Shelby County Schools, was sentenced to 30 years in prison
for producing child pornography. Wooten was also ordered to remain on supervised release for the rest of his
life after completing his prison term. The court noted during the hearing that Wooten had numerous child
victims. Also, in August 2012, eight more defendants were sentenced for their involvement in an international
criminal network organized to sexually exploit children in connection with their participation in the
Dreamboard Child Exploitation bulletin board. Altogether, these eight defendants received a collective total of
169 years in prison.

The CRT has spearheaded a number of initiatives aimed at aggressively combating human trafficking,
including outreach to the public concerning potential trafficking situations, training for and collaboration with
law enforcement officers, and implementing programs to address the needs of trafficking victims. CRT led the
creation of a specialized Human Trafficking Prosecution Unit that is a global leader in trafficking




                                                  - 16 -
prosecutions, and its representatives train foreign investigators and prosecutors at the United Nations and
across the globe. CRT established a national, toll-free telephone complaint line to enable victims and others to
report possible trafficking and worker exploitation abuses. CRT has been instrumental in developing a
national human trafficking training curriculum for state and local law enforcement and in drafting model
legislation for states to implement their own anti-trafficking laws. CRT filed the second-highest number of
human trafficking cases in the history of the Division, exceeded only by the number of cases charged in FY
2010.



                      Num be r of M atters/Inve stiga tions of Child Sex ua l Exploita tion and Human
                                                    Tra fficking Resolved
                                                                                             4,938
       5,000
                                                                                     4,348

       4,000


       3,000
                                                                                                        Actual
       2,000                                                                                            Target

       1,000


           0
               FY05       FY06      FY07      FY08       FY09      FY10      FY11      FY12




Data Definition: A matter or investigation is defined as “open” once it is assigned a number. The definition
of resolved means the matter/investigation is closed. Matter/investigation can be closed for a variety of
reasons, such as plea bargain, dismissal, declination, and trial. Open investigations pertaining to sexual
exploitation of children encompass domestic sexual child abuse, child pornography, child abuse in Indian
country, and child enticement cases. Human trafficking open investigations pertain to adult and child human
trafficking.

Data Collection and Storage: Data are currently captured within each component’s automated case
management system and companion interface systems. Currently, matters and investigations worked on by
more than one component are included in the totals from CRM, CRT, and EOUSA. Also, the court’s
disposition date is used for reporting purposes for CRM and CRT; however, EOUSA uses the date entered into
their current case management system. Additionally CRM and EOUSA count matters and investigations at the
defendant level; CRT count civil and criminal matters/investigations.

Data Validation and Verification: Each component implements their individual methodology for verifying
data; however, in general, matter/investigation listings and reports are reviewed by attorney managers for data
completeness and accuracy on a routine basis. Batch data analysis and ad hoc reviews are also conducted.

Data Limitations: Data quality suffers from the lack of a single DOJ case management system and a
standardized methodology for capturing matters/investigations related data. Due to reporting lags,
matter/investigation closures for any given year may be under or over-reported.




                                                     - 17 -
Reduce Drug Availability

Background/Program Objectives: The Department focuses its drug law enforcement efforts on reducing the
availability of drugs by disrupting and dismantling the largest drug trafficking organizations and related money
laundering networks operating internationally and domestically, including those on the Attorney General’s
Consolidated Priority Organization Target (CPOT) List. The first CPOT List was issued in September 2002
and is reviewed and updated semi-annually. The List identifies the most significant international drug
trafficking and money laundering organizations and those primarily responsible for the nation’s illegal drug
supply. The Attorney General has designated the Organized Crime Drug Enforcement Task Forces
(OCDETF) Program as the centerpiece of DOJ’s illegal drug supply reduction strategy. The OCDETF
Program coordinates multi-agency and multi-jurisdictional investigations targeting the most serious drug
trafficking threats. The OCDETF Program is responsible for coordinating the annual formulation of the CPOT
list. The OCDETF Program functions through the efforts of the United States Attorneys; elements of the
Department’s Criminal Division; the investigative, intelligence, and support staffs of the Drug Enforcement
Administration; the Federal Bureau of Investigation; the Bureau of Alcohol, Tobacco, Firearms and
Explosives; the U.S. Marshals Service; U.S. Immigration and Customs Enforcement; the U.S. Coast Guard;
and the Internal Revenue Service. The OCDETF agencies also partner with numerous state and local law
enforcement agencies.

The goal of each OCDETF investigation is to determine connections among related investigations nationwide
in order to identify and dismantle the entire structure of the drug trafficking organizations, from international
supply and national transportation cells, to regional and local distribution networks. A major emphasis of the
Department’s drug strategy is to disrupt the traffickers’ financial dealings and to dismantle the financial
infrastructure that supports these organizations. The OCDETF Program has the greatest impact upon the flow
of drugs through this country when it successfully incapacitates the entire drug network by targeting and
prosecuting its leadership and seizing the profits that fund continued operations.

Performance Measure: CPOT-Linked Drug Trafficking Organizations Disrupted and Dismantled

FY 2012 Target:
Dismantled: 145
Disrupted: 340
FY 2012 Actual:
Dismantled: 171
Disrupted: 446

Discussion of FY 2012 Results: The Department achieved impressive results during FY 2012 in dismantling
and disrupting CPOT-linked drug trafficking organizations. The Department dismantled 171 CPOT-linked
organizations in FY 2012, exceeding its target by 18%. The Department disrupted 446 CPOT-linked
organizations in FY 2012, exceeding its target by 31%. This is an 8% increase over the 414 reported in
FY 2011.

During FY 2012, in addition to making important gains against CPOT-linked organizations, the Department
continued to achieve significant successes against the CPOTs themselves. Over the course of the last year,
four CPOT targets were dismantled and seven CPOT targets were disrupted. Through these dismantlements
and disruptions, the Department made significant impacts against the Sinaloa Cartel, the North Valley Cartel
and other significant cartels operating out of Mexico and South America. All four of the dismantled CPOT
targets were arrested and either deported or extradited to the United States for prosecution; three disrupted
targets have been extradited to the United States as well; and another disrupted target is pending extradition.

These eleven disrupted and dismantled CPOTs had a significant impact on the illegal drug supply in the
United States. It is estimated that their activities included using the internet to sell various drugs and




                                                  - 18 -
controlled substances to customers worldwide; the combined capability of importing and distributing over 150
metric tons of cocaine into the United States, Mexico, and Europe; shipping truckloads containing more than
2 tons of cocaine to New York alone; and using a multitude of companies to distribute a variety of drugs and
launder money. Approximately $2.1 million in drug proceeds bound for Mexico was seized from just one of
these organizations and many front companies have been identified in several countries and on the internet.
The reach of these transnational drug trafficking organizations extended across multiple continents. Law
enforcement activity targeting these CPOTs involved complex and coordinated intelligence driven
investigations, with exceptional cooperation between U.S. law enforcement agencies and international
partners.

The Department’s FY 2012 successes dismantling or disrupting 617 CPOT-linked drug trafficking
organizations, an increase over the previous high of 612 dismantled or disrupted in FY 2011, as well as the
significant enforcement actions against CPOTs themselves have resulted in keeping multi-ton quantities of
illegal drugs such as cocaine, heroin, marijuana and methamphetamine from ever entering the United States.



                      CPOT-Linked Drug Trafficking Organizations Disrupted and Dismantled

                                     375
                                     300
                                     225
                                     150
                                      75
                                       0
                                                                                                         FY12 FY12
                                           FY03 FY04 FY05 FY06 FY07 FY08 FY09 FY10 FY11
                                                                                                          Tgt. Act.
                           Dism antled      20     36    121     93     86    104    143    182    198    145    171
                           Disrupted        62    159    204    189    169    299    276    367    414    340    446

         Note: FY 2011 actual numbers have been updated and do not reflect the numbers in the FY 2011 Performance Accountability Report.




Data Definition: An organization is considered linked to a CPOT if credible evidence exists of a nexus
between the primary investigative target and a CPOT target, verified associate, or component of the CPOT
organization. Disrupted means impeding the normal and effective operation of the targeted organization, as
indicated by changes in the organizational leadership and/or changes in methods of operation. Dismantled
means destroying the organization's leadership, financial base, and supply network such that the organization
is incapable of reconstituting itself.

Data Collection and Storage: For this measure, OCDETF reviews all of the cases worked by FBI and DEA.
When there are cases that both agencies work, they are counted as one case in the consolidated numbers
reported here in the OBDs MD&A and the Department’s Performance and Accountability Report. This
procedure is in place to prevent double counting in Department-level reports.

Investigations may be linked to a CPOT organization at any time during the investigation. Once the link is
verified, a specific code or other identifier is assigned to the investigation. Accordingly, data on this
performance measure may lag behind actual identification of the link by the investigative agency. The
investigation is tracked as “CPOT-linked” by the agency and within the OCDETF Management Information
System.

Data Validation and Verification: The CPOT List is updated semi-annually. Each OCDETF agency has an
opportunity to nominate targets for addition to or deletion from the List. Nominations are considered by the




                                                               - 19 -
CPOT Working Group (made up of mid-level managers from the participating agencies). Based upon the
Working Group’s recommendations, the OCDETF Operations Chiefs decide which organizations will be
added to or deleted from the CPOT List.

Once a CPOT is added to the List, OCDETF investigations can be linked to that organization. The links are
reviewed and confirmed by OCDETF field managers using the OCDETF Fusion Center, agency databases,
and intelligence information. Field recommendations are reviewed by the OCDETF Executive Office. In
instances where a link is not fully substantiated, the sponsoring agency is given the opportunity to follow-up.
Ultimately, the OCDETF Executive Office "un-links" any investigation for which sufficient justification has
not been provided. When evaluating disruptions/dismantlements of CPOT-linked organizations, OCDETF
verifies reported information with the investigating agency’s headquarters.

Data Limitations: Investigations of CPOT-level organizations are complex and time-consuming, and the
impact of disrupting/dismantling such a network may not be apparent immediately. In fact, data may lag
behind enforcement activity. For example, a CPOT-linked organization may be disrupted in one FY and
subsequently dismantled in a later year when law enforcement permanently destroys the organization’s ability
to operate.


Improve Criminal Justice System Capabilities

Background/Program Objectives: The principle mission of the Office on Violence Against Women (OVW)
is to provide federal leadership in developing the nation’s capacity to reduce violence against women through
the implementation of the Violence Against Women Act (VAWA). OVW administers financial and technical
assistance to communities around the country that are creating and enhancing programs, policies, and practices
aimed at ending sexual assault, domestic violence, dating violence, and stalking.

The VAWA was designed to improve criminal justice responses to sexual assault, domestic violence, dating
violence, and stalking and to increase the availability of services for victims of these crimes. The VAWA
requires a coordinated community response to violence against women encouraging jurisdictions to bring
together a diverse group of individuals and organizations to share information and to use their distinct roles to
improve community responses to these crimes. The group often includes: victim advocates, police officers,
prosecutors, judges, probation and corrections officials, health care professionals, leaders within faith
communities, survivors of violence against women, and others. The federal law takes a comprehensive
approach to fighting violence against women – combining new penalties to prosecute offenders with programs
to aid victims of such violence.

Performance Measure: Number of people trained (to improve responses to crimes of sexual assault, domestic
violence, dating violence, and/or stalking)

FY 2012 Target: 285,858
FY 2012 Actual Performance: 349,325

Discussion of FY 2012 Results: The OVW grantees met and exceeded the target for number of people trained
to improve responses to crimes of sexual assault, domestic violence, dating violence, and/or stalking.




                                                  - 20 -
                                                    Number of Pe ople Tra ined [OV W]


                                                                                                            349,325
      360,000
                                                                                 314,246      316,767
                                                       292,117                                                      285,858
      300,000                                                       276,646

                                          229,515
      240,000    208,608
                              188,815
                                                                                                                                   Actual
      180,000
                                                                                                                                   Target
      120,000

       60, 000

            0
                  FY05         FY06         FY07          FY08         FY09         FY10         FY11         FY12


           Note: FY 2012 target has been updated and does not reflect the target reported in the FY 2013 President’s Budget submission.



Data Definition: Training is defined as providing information on sexual assault, dating violence, domestic
violence, and stalking that enables a person to improve their response to victims/survivors as it relates to their
role in the system. Training is not an educational presentation or prevention education. Education means
providing general information that will increase public awareness of sexual assault, dating violence, domestic
violence, and stalking. Some examples of education include: presentations to community groups, men’s
groups, parents/guardians, victims/survivors etc. Students, community members, and victims are not reported
as people trained, since they are not professionals responding to victims. All OVW grantees and subgrantees
who provide training must report to OVW the number of OVW funded staff members trained or any trainings
supported by OVW funding. OVW-funded staff attending training events are not counted in this number.

Data Collection and Storage: Data are collected through semi-annual and annual subgrantee progress reports
and on-site monitoring. Data are stored in OVW office files and in computer files. The training population
includes law enforcement officers, victim advocates, attorneys, prosecutors, judges and court personnel,
corrections officers, and other multi-disciplinary professionals.

Data Validation and Verification: The OVW validates and verifies performance measures through a review
of progress reports submitted by grantees, telephone contacts, and on-site monitoring of grantee performance
by grant managers.

Data Limitations: Data are collected through grantee and sub-grantee progress reports which cause data to
lag one year. The time lag is due to the number of steps involved in the data collection and data cleaning and
analyzing process. First, grantees submit their progress report data (semi-annually for all discretionary grant
programs or annually for the Stop Violence Against Women Formula Grant and the Sexual Assault Services
Program after each reporting period [due 30 days after the reporting period for discretionary programs and 90
days after the reporting period for the STOP Formula grant program and the Sexual Assault Services
Program]). In most six-month periods, OVW will receive over 1,000 progress reports. Reports are reviewed
by OVW Program Specialists for completeness, accuracy, and whether the grantee is meeting the goals and
objectives of the grant project. If questions arise regarding the report, the grantee is contacted for clarification
or additional information. This step takes 60 days. After OVW approval of all the reports, the Office of
Justice Program prepares and transfers the bulk data to the University of Maine, Muskie School. (In 2001,
OVW entered into a cooperative agreement with the Muskie School of Public Service’s Catherine E. Cutler
Institute for Child and Family Policy [the Muskie School] to develop and implement state-of-the-art reporting




                                                              - 21 -
tools to capture the effectiveness of VAWA grant funding. The Muskie School handles the data collection,
data cleaning, and data analysis of all grantee and subgrantee reports). The Muskie School then takes a few
months to clean and analyze this raw data for each grant program.

Support Community Policing Initiatives

Background/Program Objectives: The Office of Community Oriented Policing Services (COPS) was
established in 1994 to assist law enforcement agencies in enhancing public safety through the implementation
of community policing strategies. The resources offered by the COPS Office to state, local, and tribal law
enforcement agencies strengthen partnerships for safer communities and increase the capacity of agencies to
prevent, solve, and control crime through the implementation of community policing strategies. COPS Office
community policing resources and initiatives can be grouped into two primary lines of business: Advancing
Community Policing through Grant Resources; and Advancing Community Policing through Knowledge
Resources.
The Advancing Community Policing through Grant Resources line of business provides law enforcement
agencies with grant resources focused on increasing the capacity of those agencies to implement community
policing strategies. These strategies are focused on the three primary elements of community policing:
1) developing community/law enforcement partnerships; 2) developing problem-solving and innovative
approaches to crime issues; and 3) implementing organizational change to build and strengthen community
policing infrastructure. COPS grant funding has provided state, local, and tribal law enforcement agencies
with grants for equipment, technology, officers, and training. Since 1994, COPS grant programs have
provided funding to over 13,000 of the nation’s 18,000 law enforcement agencies.

Similarly, the Advancing Community Policing through Knowledge Resources line of business provides law
enforcement agencies as well as other customers (i.e., community groups, non-profit organizations, academics,
etc.) with knowledge resources focused on increasing the capacity of law enforcement agencies to implement
community policing strategies within the three primary elements of community policing. The knowledge
resources that are developed and distributed by the COPS Office include training, technical assistance,
publications, webcasts, podcasts, conferences and roundtables, best practices that are disseminated through
websites, and various printed and published materials. These knowledge resources assist in preparing officers
and their departments to meet challenges by using community policing strategies, as well as promoting
collaboration between law enforcement and communities to solve problems and build relationships locally.

Performance Measure: Effectiveness rating of COPS knowledge resources in increasing community policing
capacity

FY 2012 Target: 76
FY 2012 Actual Performance: 81

Discussion of FY 2012 Results: Respondents of the FY12 Annual Outcome Survey commented that they felt
much more positively about publication resources improving their technological capabilities to prevent,
respond and analyze crime and to institute organizational changes. The COPS Office also held a national
conference in August 2012 where hundreds of resources were distributed to our customers and stakeholders.




                                                - 22 -
               E ffectivenes s Ra ting of Know ledge Re source s in Increas ing Comm unity Policing
                                                     Capac ity

       100.0

                                                 78.5                   80.0        81.0 76.0
               73.0       75.0        77. 0
                                                            75.5




        50.0                                                                                          Actual
                                                                                                      Target



         0.0
               FY06        FY07       FY08        FY09       FY10        FY11       FY12




Data Definition: Content-based knowledge resources include publication products (e.g., Problem Oriented
Policing guides for police, toolkits, white papers, program evaluations, etc.). Event-based knowledge resources
include training (classroom and web-based), technical assistance, community policing conferences,
roundtables, etc. A knowledge resource recipient is any customer that receives a content-based knowledge
resource product from the COPS Office or attends a knowledge resource event.

Data Collection and Storage: The COPS Office, through the Federal Consulting Group, has asked the CFI
Group, a third party independent research firm, to conduct a survey to determine how COPS knowledge
resources have increased the capacity of customers to implement community policing strategies. The
effectiveness rating is on a scale of 0 to 100 points with 100 being the highest rating. Law enforcement
personnel who received training and technical assistance from COPS sponsored training providers within 4 to
6 months before the survey is conducted and law enforcement personnel who ordered COPS knowledge
products/publications in the 6 months prior to the survey are included in the survey sample. The data is
collected online and stored electronically.

Data Validation and Verification: The data collected is validated electronically as well as by the personnel
from the independent research firm. The research firm completes a comprehensive statistical analysis of the
survey data and sample sizes to ensure that the data provided to the COPS Office is both accurate and reliable.

Data Limitations: The data is collected annually in July and the final survey results are provided to the
COPS Office by the end of August. The potential data limitation would be a low response rate to the survey.
Thus far, the COPS Office has received a high response rate to the survey.




                                                 - 23 -
STRATEGIC GOAL 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent
Administration of Justice at the Federal, State, Local, Tribal, and International Levels

22.1% of OBDs Net Costs support this Goal.


  STRATEGIC OBJECTIVE 3.3: Provide for the safe, secure, and humane and cost-effective
  confinement of detainees awaiting trial and/or sentencing, and those in the custody of the federal prison
  system.
  STRATEGIC OBJECTIVE 3.4: Adjudicate all immigration cases promptly and impartially in
  accordance with due process.


Provide for the Safe, Secure, and Humane Confinement of Detainees

Background/Program Objectives: The mandate of the Office of the Federal Detention Trustee (OFDT) is to
manage resource allocations, exercise financial supervision of detention operations, and set government-wide
detention policy. OFDT has overall management and responsibility for federal detention services relating to the
detention of federal prisoners in the custodial jurisdiction of the U.S. Marshals Service (USMS).

Costs begin at the time a prisoner is brought into USMS custody and extend through termination of the criminal
proceeding and/or commitment to the Bureau of Prisons (BOP). Detention bed space for federal detainees is
acquired as effectively and efficiently as possible through: (1) federal detention facilities, where the government
pays for construction and operation of the facility through the BOP; (2) Intergovernmental Agreements (IGA)
with state and local jurisdictions who have excess prison/jail bed capacity and where a daily rate is paid for the
use of the bed; and, (3) private jail facilities where a daily rate is paid.

In recent years, the DOJ has not been able to rely as much on IGAs and federal facilities to meet the surge in the
detention population as state and local governments are increasingly using their facilities for their own detention
requirements. With space unavailable in areas where more federal bed-space is needed, DOJ has increasingly
turned to the private sector.

Ensuring safe, secure, and humane confinement for federal detainees is critically important. To address the
variance between federal, state and local government, and privately owned and managed facilities, the federal
Performance-Based Detention Standards were developed. To ensure compliance, federal contract vehicles are
written or modified to reflect federal Performance-Based Detention Standards with private contractor
performance compensation based on their ability to demonstrate compliance. The comprehensive Quality
Assurance Review Program provides various methodologies for assessing a facility’s operations to ensure that
the safe, secure, and humane confinement criteria are met, as well as addressing Congress’ concerns for public
safety as it relates to violent prisoners (e.g., Interstate Transportation of Dangerous Criminals Act, also known as
Jenna’s Act).

Performance Measure: Per Day Jail Costs

FY 2012 Target: $75.77
FY 2012 Actual: $74.21

Discussion of FY 2012 Results: Performance was in line with expectation. There were no anomalies that
caused increases in the per diem rate awarded to state and local facilities providing detention space to the
USMS.




                                                  - 24 -
                                              Per Day Jail Costs
                                                                                           $75.77
     FY12                                                                                    $74.21
     FY11                                                                                  $72.88
     FY10                                                                               $70.56
     FY09                                                                             $69.01
     FY08                                                                         $67.47              Target
     FY07                                                                      $64.40
                                                                                                      Actual
     FY06                                                                    $62.73
     FY05                                                                   $61.92
     FY04                                                                   $61.87
     FY03                                                                  $60.87
        $0.00                     $25.00                    $50.00                      $75.00




Data Definition: Per Day Jail Cost is actual price paid (over a 12-month period) by the USMS to house
federal prisoners in non-federal detention facilities. Average price paid is weighted by actual day usage at
individual detention facilities.

Data Collection and Storage: Data describing the actual price charged by state, local, and private detention
facility operators is maintained by the USMS in their Prisoner Tracking System (PTS) and it is updated on an as-
needed, case-by-case basis when rate changes are implemented. Rate information for specific facilities is
maintained by USMS headquarters staff. For those private facilities where OFDT has a direct contract for bed
space, the effective per diem is calculated using information obtained from OFDT’s Procurement Division. In
conjunction with daily reports to OFDT of prisoners housed, OFDT compiles reports describing the price paid
for non-federal detention space on a weekly and monthly basis. Data are reported on both district and national
levels.

Data Validation and Verification: Data reported to OFDT are validated and verified against monthly reports
describing district-level jail utilization and housing costs prepared by the USMS. For direct contracts, contract
terms are verified by OFDT Procurement staff.

Data Limitations: The limitation is ensuring that USMS district level input into PTS occurs in a timely and
correct manner.




                                                  - 25 -
Adjudicate Immigration Cases Promptly and Impartially


Background/Program Objectives: The Executive Office for Immigration Review (EOIR) has jurisdiction
over various immigration matters relating to the Department of Homeland Security (DHS), aliens, and other
parties. EOIR is comprised of three adjudicating components: the Board of Immigration Appeals (BIA), the
Immigration Courts, and the Office of the Chief Administrative Hearing Officer. EOIR’s mission is to render
timely, fair, and well-considered decisions in the cases brought before it. EOIR’s ability to achieve its mission
is critical to the guarantee of justice and due process in immigration proceedings, and public confidence in the
timeliness and quality of EOIR adjudications. Included in this context are the timely grants of relief from
removal in meritorious cases and the expeditious issuance of orders of removal for criminal and other
inadmissible aliens where no relief is available. To assure mission focus, EOIR has identified adjudication
priorities and set specific time frames for most of its proceedings. These priorities include cases involving
criminal and other detained aliens, and adjudicative time frames for all detained appeals filed with the BIA.
The targets are related to percentages of cases actually completed.

Performance Measure: Percent of EOIR Priority Cases Completed Within Established Time Frames

FY 2012 Target: 85% for Institutional Hearing Program (IHP) and detained immigration court cases and 90%
for detained appeals
FY 2012 Actual:
Immigration Court Institutional Hearing Program Cases Completed Prior to Release from Incarceration: 87% 

Immigration Court Detained Cases Completed Within 60 Days: 86% 

BIA Detained Appeals Completed Within 150 Days: 97% 


Discussion of FY 2012 Results: Through careful management of EOIR’s resources, the agency exceeded all 

three of its goals for FY 2012. EOIR placed its focus on completing its large detained caseload. The 

immigration courts also used video teleconferencing when appropriate to handle the detained immigration 

court docket, including Institutional Hearing Program cases. The BIA also continued to manage its resources 

carefully to ensure that it exceeded its goal of completing 90 percent of detained appeals within 150 days. 

EOIR will continue to look at innovative ways to manage its detained docket, including close coordination 

with DHS. 




                  Percent of EOIR Priority Cases Completed Within Established Time Frames

                100%


                 90%


                 80%


                 70%
                                                                                                    FY12    FY12
                        FY03     FY04    FY05    FY06      FY07   FY08    FY 09    FY10    FY11
                                                                                                    Tgt.    Act.
     IHP                86%      88%     89%      92%      86%     91%     90%     87%      88%     85%      87%
     Detained Cases     88%      88%     91%      92%      89%     90%     88%     89%      88%     85%      86%
     Detained Appeals    N/A     N/A      N/A     N/A      97%     96%     96%     93%      94%     90%      97%




                                                  - 26 -
Data Definition: The EOIR has defined its priority caseload as two types of immigration court cases (IHP
and detained cases) and one type of Board of Immigration Appeals case (detained appeals). The IHP is a
collaborative effort between EOIR, DHS and various federal, state, and local corrections agencies. The
program permits immigration judges to hold removal hearings inside correctional institutions prior to the alien
completing his or her criminal sentence. Detained aliens are those in the custody of DHS or other entities.

Data Collection and Storage: Data are collected from the Case Access System for EOIR (CASE), a
nationwide case-tracking system at the trial and appellate levels.

Data Validation and Verification: All data entered by courts nationwide are instantaneously transmitted and
stored at EOIR headquarters, which allows for timely and complete data. Data are verified by on-line edits of
data fields. Headquarters and field office staff have manuals that list the routine daily, weekly, and monthly
reports that verify data. Data validation is also performed on a routine basis through data comparisons
between EOIR and DHS databases.

Data Limitations: None known at this time.




                                                 - 27 -
ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

Internal Control Program in the Offices, Boards and Divisions

The objective of the OBDs internal control program is to provide reasonable assurance that operations are
effective, efficient, and comply with applicable laws and regulations; financial reporting is reliable; and assets
are safeguarded against waste, loss, and unauthorized use. OBDs management identifies issues of concern
through a strong network of oversight councils and internal review teams. These include the Justice
Management Division’s (JMD) Internal Review and Evaluation Office and Quality Control and Compliance
Group and the Executive Office for United States Attorneys’ Evaluation and Review Staff. OBDs
management also considers reports issued by the Office of the Inspector General (OIG) when assessing
internal control.

The OBDs internal control continues to improve through the corrective actions implemented by management.
The OBDs commitment to management excellence, accountability, and compliance with applicable laws and
regulations is evidenced in continuing actions to establish effective controls, make sound determinations on
corrective actions, and verify and validate the results. For example, on a quarterly basis, OBDs components
review and certify their obligations to the JMD Finance Staff and report on their financial operations, system,
and controls. This commitment is further evidenced by the control improvements and actions taken by OBDs
management in response to Departmental initiatives and OIG recommendations.

MANAGEMENT ASSURANCES

Federal Managers’ Financial Integrity Act of 1982
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA or Integrity Act) provides the statutory basis
for management’s responsibility for and assessment of internal accounting and administrative controls. Such
controls include program, operational, and administrative areas, as well as accounting and financial
management. The Integrity Act requires federal agencies to establish controls that reasonably ensure
obligations and costs are in compliance with applicable law; funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are properly
recorded and accounted for to maintain accountability over the assets. The Integrity Act also requires agencies
to annually assess and report on the internal controls that protect the integrity of federal programs (FMFIA § 2)
and whether financial management systems conform to related requirements (FMFIA § 4).

Guidance for implementing the Integrity Act is provided through OMB Circular A-123, Management’s
Responsibility for Internal Control. In addition to requiring agencies to provide an assurance statement on the
effectiveness of programmatic internal controls and conformance with financial systems requirements, the
Circular requires agencies to provide an assurance statement on the effectiveness of internal control over
financial reporting. To provide these assurances to the President, the Attorney General depends on
information from component heads regarding their component’s internal controls.

FMFIA Assurance Statement

OBDs management is responsible for establishing and maintaining effective internal controls and a financial
management system that meet the objectives of the FMFIA. In accordance with OMB Circular A-123,
OBDs management conducted its annual assessment of the effectiveness of internal controls to support
effective and efficient programmatic operations, reliable financial reporting, and compliance with applicable
laws and regulations (FMFIA § 2). OBDs management also assessed whether its financial management
system conforms to financial system requirements (FMFIA § 4). Based on the results of the assessments,
OBDs management can provide reasonable assurance that the OBDs’ internal controls and financial




                                                  - 28 -
management system meet the objectives of the FMFIA. Internal controls were operating effectively as of
September 30, 2012, and the assessments identified no material weaknesses in the design or operation of the
controls or any non-conformances required to be reported.

In accordance with Appendix A of OMB Circular A-123, OBDs management conducted its assessment of the
effectiveness of internal control over financial reporting, which included the safeguarding of assets and
compliance with applicable laws and regulations. Based on the results of the assessment, OBDs management
can provide reasonable assurance that the OBDs’ internal control over financial reporting was operating
effectively as of June 30, 2012, and the assessment identified no material weaknesses in the design or
operation of the controls.

Financial Management Systems and Controls

The Financial Management Information System (FMIS2) is the official financial management system for the
OBDs. The system, which is a certified and accredited financial management system, supports the full range
of financial management requirements, including the general ledger function, budget execution, travel, credit
card purchases, and third-party and Treasury payments. FMIS2 supports centralized and decentralized vendor
and travel processing and conforms to federal core financial system requirements. FMIS2 includes security
access control tables and table monitoring reports, an automated FMIS2 user identification re-certification
process, and electronic funds transfer banking monitoring reports.

Legal Compliance

Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to advance federal
financial management by ensuring that federal financial management systems provide accurate, reliable, and
timely financial management information to the government’s managers. Compliance with the FFMIA
provides the basis for the continuing use of reliable financial management information by program managers,
as well as by the President, Congress, and public. The FFMIA requires agencies to have financial
management systems that substantially comply with federal financial management system requirements,
applicable federal accounting standards, and the application of the U.S. Government Standard General Ledger
at the transaction level. Guidance for implementing the FFMIA is provided through OMB Circular A-127,
Financial Management Systems.

FFMIA Compliance Determination

During FY 2012, OBDs management assessed its financial management system for compliance with the
FFMIA and determined that the system substantially complies with the FFMIA. This determination is based
on the results of the FISMA review and testing performed for OMB Circular A- 123, Appendix A.
Consideration was also given to issues identified during the financial statement audit.

Improper Payments Elimination and Recovery Act Implementation

In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, and the Departmental guidance for implementing the Improper Payments
Elimination and Recovery Act (IPERA), the Department implemented a top-down approach to assess the risk
of significant improper payments across all five of the Department’s mission-aligned programs, and to identify
and recapture improper payments through a payment recapture audit program. The approach promotes
consistency across the Department and enhances internal control related to preventing, detecting, and
recovering improper payments. Because of the OMB requirement to assess risk and report payment recapture




                                                - 29 -
audit activities by agency programs, the results of the Department’s risk assessment and recapture activities are
reported at the Department-level only.

In accordance with the Departmental approach for implementing IPERA, OBDs management assessed OBDs
activities for susceptibility to significant improper payments. OBDs management also conducted the OBDs
payment recapture audit program in accordance with the Departmental approach. The results of both the
OBDs risk assessment and payment recapture audit activities were provided to the Department for the
Department-level reporting in the FY 2012 Performance and Accountability Report.

POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

The Department’s leadership is committed to ensuring its programs and activities will continue to be targeted
to meeting the dynamic demands of the changing legal, economic, and technological environments of the
future.

James Zadroga 9/11 Health and Compensation Act of 2010
•	 DOJ workload could potentially increase resulting from the James Zadroga 9/11 Health and Compensation
   Act of 2010. The Act provides compensation to any individual (or personal representative of a deceased
   individual) who suffered physical harm as a result of the terrorist-related aircraft crashes of September 11,
   2001, or the debris removal efforts that took place in the immediate aftermath.

Technology
•	 Advances in high-speed telecommunications, computers, and other technologies are creating new
   opportunities for criminals, new classes of crimes, and new challenges for law enforcement.

Economy
•	 Possible increases in consumer debt may affect bankruptcy filings.
•	 The Department may experience an increased role in the federal financial recovery effort through criminal
   and civil litigation.
•	 The interconnected nature of the world’s economy is increasing opportunities for criminal activity,
   including money laundering, white-collar crime, and alien smuggling.

Government
•	 Changes in the fiscal posture or policies of state and local governments could have dramatic effects on the
   capacity of state and local governments to remain effective law enforcement partners.

Globalization
•	 Issues of criminal and civil justice increasingly transcend national boundaries, require the cooperation of
   foreign governments, and involve treaty obligations, multinational environment and trade agreements, and
   other foreign policy concerns.

Social-Demographic
•	 The numbers of adolescents and young adults, now the most crime-prone segment of the population, are
   expected to grow rapidly over the next several years.

The Unpredictable
•	 Changes in federal laws may affect responsibilities and workload.
•	 Much of the litigation caseload is defensive. The OBDs have little control over the number, size, and
   complexity of the civil lawsuits they must defend.
•	 Response to unanticipated natural disasters and their aftermath may require the Department to divert
   resources in an effort to deter, investigate, and prosecute disaster-related federal crimes such as charity
   fraud, insurance fraud, and other crimes.




                                                  - 30 -
OTHER MANAGEMENT INFORMATION, INITIATIVES, AND ISSUES

The American Recovery and Reinvestment Act of 2009
 •	 OBDs received approximately $1.2 billion in funding under the American Recovery and Reinvestment Act
    of 2009. OBDs are fully committed to ensuring that the funds received are expended responsibly and in a
    transparent manner to further job creation, economic recovery, and other purposes of the Act. Below is a
    chart showing appropriations, obligations, and outlays by component as of September 30, 2012:

     Component             Appropriation Amount        Obligations                 Outlays
     OVW                   $ 225,563,910               $ 221,910,610               $ 201,946,553
     COPS                  $ 1,002,506,265             $ 989,457,924               $ 724,150,593
     OIG                   $     2,000,000             $     1,800,000             $ 1,800,000
     OBDs Total            $ 1,230,070,175             $ 1,213,168,534             $ 927,897,146



LIMITATIONS OF THE FINANCIAL STATEMENTS

•	 The financial statements have been prepared to report the financial position and results of operations of
   OBDs components, pursuant to the requirements of 31 U.S.C. 3515(b).

•	 While the financial statements have been prepared from the books and records of the OBDs in accordance
   with the U.S. generally accepted accounting principles for federal entities and the formats prescribed by
   OMB, the financial statements are in addition to the financial reports used to monitor and control
   budgetary resources which are prepared from the same books and records.

•	 The financial statements should be read with the realization that they are for a component of the U.S.
   Government, a sovereign entity.




                                                  - 31 -
This page intentionally left blank. 





           - 32 -
Independent Auditors’ Reports





          - 33 -
This page intentionally left blank. 





           - 34 -
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                        Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice

Chief Financial Officer
Offices, Boards and Divisions
U.S. Department Justice

We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Offices,
Boards and Divisions (OBDs) as of September 30, 2012 and 2011, and the related consolidated statements
of net cost and changes in net position, and the combined statements of budgetary resources and custodial
activity (hereinafter referred to as “consolidated financial statements” or “basic financial statements”) for
the years then ended. These consolidated financial statements are the responsibility of the OBDs’
management. Our responsibility is to express an opinion on these consolidated financial statements based
on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the OBDs’ internal control over financial reporting. Accordingly, we express no such opinion. An audit
also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Offices, Boards and Divisions as of
September 30, 2012 and 2011, and its net costs, changes in net position, budgetary resources, and custodial
activity for the years then ended in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1.X to the consolidated financial statements, the OBDs changed its presentation for
reporting the combined statement of budgetary resources in fiscal year 2012, based on new reporting
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result, the OBDs’
combined statement of budgetary resources for fiscal year 2011 has been adjusted to conform to the current
year presentation.

U.S. generally accepted accounting principles require that the information in Required Supplementary
Information, including Management’s Discussion and Analysis, be presented to supplement the basic
                                                       - 35 -
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
financial statements. Such information, although not a part of the basic financial statements, is required by
the Federal Accounting Standards Advisory Board who considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the basic financial statements, and other
knowledge we obtained during our audits of the basic financial statements. We do not express an opinion
or provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Other Accompanying Information section is presented for the purpose of
additional analysis and is not a required part of the basic financial statements. Such information has not
been subjected to the auditing procedures applied in the audits of the basic financial statements, and
accordingly, we do not express an opinion or provide any assurance on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 5,
2012, on our consideration of the OBDs’ internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 5, 2012




                                               - 36 -
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice

Chief Financial Officer
Offices, Boards and Divisions
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Offices, Boards and
Divisions (OBDs) as of September 30, 2012 and 2011, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources and custodial activity
(hereinafter referred to as “consolidated financial statements”) for the years then ended, and have issued
our report thereon dated November 5, 2012. As discussed in Note 1.X to the consolidated financial
statements, the OBDs changed its presentation for reporting the combined statement of budgetary resources
in fiscal year 2012, based on new reporting requirements under OMB Circular No. A-136, Financial
Reporting Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the OBDs is responsible for establishing and maintaining effective internal control
over financial reporting. In planning and performing our fiscal year 2012 audit, we considered the OBDs’
internal control over financial reporting by obtaining an understanding of the OBDs’ internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the consolidated financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the OBDs’ internal control over financial reporting. Accordingly, we do not express an
opinion on the effectiveness of the OBDs’ internal control over financial reporting. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
                                                       - 37 -
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified a deficiency in internal
control over financial reporting described in the Exhibit that we consider to be a significant deficiency in
internal control over financial reporting. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.

The OBDs’ written response to the significant deficiency identified in our audit and presented in the
Exhibit was not subjected to the auditing procedures applied in the audit of the OBDs’ consolidated
financial statements and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of the OBDs’ management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 5, 2012




                                               - 38 -
                                                                                                     EXHIBIT


                                       SIGNIFICANT DEFICIENCY

This section contains our discussion of the significant deficiency we identified in internal control over
financial reporting.

INADEQUATE INTERNAL CONTROLS OVER THE ACCOUNTING AND REPORTING OF INTERNAL USE
SOFTWARE PROJECT COSTS

As a result of our property management process update inquiries, we became aware of a potential issue
related to the accounting for and capitalization of internal use software (IUS) costs under the Unified
Financial Management System (UFMS) project. It appeared that foundation build costs were not being
included in the amount of IUS costs capitalized when component systems were put into service. Further
analysis by the OBDs’ Justice Management Division (JMD) confirmed this understatement of the IUS
capital asset accounts but also revealed that the capital asset accounts were overstated due to the
capitalization of costs not meeting the capitalization criteria according to capitalization policy clarifications
made by JMD during fiscal year 2012. As a result, adjustments of approximately $141.8 million and $36.8
million, exclusive of amortization, were made to the acquisition cost of Internal Use Software in
Development and Internal Use Software, respectively, and included in the June 30, 2012 quarterly financial
statements.
The above adjustments were made to correct the following errors in the recording of IUS-related expenses
and the capitalization of IUS-related assets:

    •	 Over the course of the UFMS project, the UFMS Program Management Office (PMO) provided
       JMD with quarterly journal entries to increase the Internal Use Software in Development balance
       for 100% of the costs associated with the UFMS implementation and integration (I&I) contract.
       However, JMD later determined that not all of the services provided by the I&I contractor met the
       capitalization criteria. Consequently, a $141.8 million adjustment was made to write off
       capitalized costs that did not meet the capitalization criteria.

    •	 Foundation build costs related to components that were in the Post-Implementation Phase should
       have been reclassified from Internal Use Software in Development to Internal Use Software to
       move IUS assets into service as component-related projects were completed. Consequently, a
       $36.8 million adjustment was made to record assets placed into service from foundation builds and
       other completed projects.

    •	 A $26 million adjustment was made to record “catch-up” amortization on the above assets placed
       into service. (This adjustment was part of a $38.4 million adjustment which also included the
       effects ($12.4 million) of shortening the useful life of IUS assets from 5 years to 3 years.)
The above errors can be attributed to the fact that JMD’s previous IUS capitalization methodology did not
delineate between the specific nature and types of IUS costs that should or should not be capitalized during
the software development phase. As a result, there was not a clear understanding within the UFMS PMO
                                                - 39 -
of the requirements that should govern their quarterly IUS data submissions to JMD. In addition, the data
submitted by the UFMS PMO to JMD was not subjected to a detailed management review within JMD
before being processed. Such a review might have detected the omission of foundation build costs from
the dollar amount of assets placed into service.

Statement of Federal Financial Accounting Standard No. 10, Accounting for Internal Use Software,
requires that when agencies purchase software as part of a package of products and services (as in the case
of the UFMS I&I contract) agencies should allocate the capitalizable and noncapitalizable cost of any
bundled products and services among individual elements on the basis of a reasonable estimate of their
relative fair values. In addition, costs incurred after management authorizes and commits to the software
development project and conceptual formulation, design, and testing (i.e., the preliminary design phase)
has been completed should be capitalized. Amortization should begin when each module or component of
a software development project has been successfully tested.

The Federal Managers’ Financial Integrity Act of 1982 requires internal accounting and administrative
controls of each executive agency be established in accordance with standards prescribed by the
Comptroller General, and shall provide reasonable assurances that revenue and expenditures applicable to
agency operations are properly recorded and accounted for to permit the preparation of reliable financial
reports and to maintain accountability over the assets.

OMB Circular A-123, Management’s Responsibility for Internal Control, states that management is
responsible for establishing and maintaining internal control to achieve the objectives of effective and
efficient operations, reliable financial reporting, and compliance with applicable laws and regulations.
Management shall consistently apply the internal control standards to meet each of the internal control
objectives and to assess internal control effectiveness.

We recommend the OBDs:

1.	 Update its capitalization methodology to clarify the Department’s accounting policy related to the
    accounting treatment for internal use software costs in light of the errors and related adjustments
    described in this finding. Consideration should be given to providing guidance as to the specific nature
    and types of IUS costs that should or should not be capitalized during the software development phase.
    (New)

    Management Response:

    The Justice Management Division (JMD), Finance Staff (FS) and Unified Financial Management
    System (UFMS) Project Management Office (PMO) concurs with the finding and recommendation.
    JMD FS and UFMS PMO are currently working on a number of initiatives that will ensure that Internal
    Use Software (IUS) is accounted for properly and recorded accurately in the annual financial
    statements. JMD FS has already initiated the updating of the current guidance, Accounting for Internal
    Use Software Capitalization Methodology and Procedures, dated November 2009 to clarify the federal
    policy to capture all internal-use software costs incurred by all components. Not only will this
    guidance apply to UFMS IUS, but all IUS throughout the OBDs.


                                              - 40 -
    While it does take some time to update and release a policy, FS Quality Control and Compliance Group
    (QCCG) raised the need to account for IUS properly in the DOJ Financial Management Information
    Bulleting (FMIB) 13-02 Required Financial Management Practices for Fiscal Year 2013 - Opening
    Bulletin. FMIB 13-02 was distributed on October 11, 2012 to emphasize key financial management
    controls throughout the OBD community.

2.	 Implement procedures to ensure that the UFMS PMO management have a complete and consistent
    understanding of the requirements that should govern compilation of internal use software cost data
    submitted for capitalization, including consideration of joint UFMS PMO and JMD Finance Staff
    training on the requirements of applicable generally accepted accounting principles. (New)

    Management Response:

    The JMD-FS concurs with this finding and recommendation. JMD-FS has developed tools, which
    were provided to UFMS PMO for use in fourth quarter of FY 2012, which made it easier to account for
    the costs of IUS. These tools are also being added to Implementation Guidance for the OBDs. In
    addition to updating Department Policy, JMD-FS will develop training for the OBDs that will reinforce
    the updated procedures for accounting for IUS.

3.	 Implement more thorough management review procedures over journal entries related to the recording
    of IUS costs and the capitalization of IUS assets, including routine reviews of the supporting
    documentation for the costs capitalized, to provide additional assurance that the recorded amounts are
    proper, accurate, and complete. (New)

    Management Response:

    The JMD-FS concurs with the finding and recommendation. JMD-FS will monitor the journal entries
    related to IUS on a quarterly basis. Each quarter JMD-FS will select high-risk entries and perform a
    detail review for completeness and accuracy. For fourth quarter FY 2012, JMD-FS did a thorough
    review over the UFMS PMO IUS financial data and performed a quality review over the entries
    entered into the FMIS2+ financial system to ensure accuracy of the financial figures.




                                             - 41 -
This page intentionally left blank.




           - 42 -
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice

Chief Financial Officer
Offices, Boards and Divisions
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Offices, Boards and
Divisions (OBDs) as of September 30, 2012 and 2011, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources and custodial activity
(hereinafter referred to as “consolidated financial statements”) for the years then ended, and have issued
our report thereon dated November 5, 2012. As discussed in Note 1.X to the consolidated financial
statements, the OBDs changed its presentation for reporting the combined statement of budgetary resources
in fiscal year 2012, based on new reporting requirements under OMB Circular No. A-136, Financial
Reporting Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the OBDs is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to the OBDs. As part of obtaining reasonable assurance about whether the OBDs’
consolidated financial statements are free of material misstatement, we performed tests of the OBDs’
compliance with certain provisions of laws, regulations, contracts, and grant agreements, noncompliance
with which could have a direct and material effect on the determination of the consolidated financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant
agreements applicable to the OBDs. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the OBDs’ financial management
systems did not substantially comply with the (1) federal financial management system requirements,

                                                       - 43 -
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
(2) applicable federal accounting standards, and (3) application of the United States Government Standard
General Ledger at the transaction level.

This report is intended solely for the information and use of the OBDs’ management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 5, 2012




                                             - 44 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 45 -
                                              U. S. Department of Justice

                                             Offices, Boards and Divisions

                                              Consolidated Balance Sheets

                                           As of September 30, 2012 and 2011

Dollars in Thousands                                                                                  2012            2011

ASSETS (Note 2)
     Intragovernmental
         Fund Balance with U.S. Treasury (Note 3)                                        $       5,702,037    $   5,223,163
         Investments, Net (Note 5)                                                                 310,479          302,328
         Accounts Receivable, Net (Note 6)                                                         322,530          350,778
         Other Assets (Note 9)                                                                      79,029           95,294
     Total Intragovernmental                                                                     6,414,075        5,971,563

      Cash and Monetary Assets (Note 4)                                                                 46               46
      Accounts Receivable, Net (Note 6)                                                             66,493           59,086
      Inventory and Related Property, Net (Note 7)                                                     106              106
      General Property, Plant and Equipment, Net (Note 8)                                          133,777          280,102
      Advances and Prepayments                                                                       1,132            1,978
Total Assets                                                                             $       6,615,629    $   6,312,881

LIABILITIES (Note 10)
     Intragovernmental
         Accounts Payable                                                                $         310,984    $     317,501
         Accrued Federal Employees' Compensation Act Liabilities                                     9,860            9,780
         Custodial Liabilities (Note 18)                                                         1,110,517          599,810
         Other Liabilities (Note 12)                                                                51,451           83,592
     Total Intragovernmental                                                                     1,482,812        1,010,683

      Accounts Payable                                                                             306,823         307,561
      Accrued Grant Liabilities                                                                    167,668         245,174
      Actuarial Federal Employees' Compensation Act Liabilities                                     56,121          51,746
      Accrued Payroll and Benefits                                                                 135,398         137,132
      Accrued Annual and Compensatory Leave Liabilities                                            181,786         181,586
      Contingent Liabilities (Note 13)                                                               3,565               -
      Radiation Exposure Compensation Act Liabilities (Note 19)                                    731,237         535,838
       September 11th Victim Compensation Fund (Note 19)                                         2,766,400                -
       Other Liabilities (Note 12)                                                                 209,775          152,987
Total Liabilities                                                                        $       6,041,585    $   2,622,707

NET POSITION
      Unexpended Appropriations - Earmarked Funds (Note 14)                              $          25,963    $      21,727
      Unexpended Appropriations - All Other Funds                                                3,355,787        3,472,362
      Cumulative Results of Operations - Earmarked Funds (Note 14)                                 255,718          252,629
      Cumulative Results of Operations - All Other Funds                                        (3,063,424)         (56,544)
Total Net Position                                                                       $         574,044    $   3,690,174
Total Liabilities and Net Position                                                       $       6,615,629    $   6,312,881




                             The accompanying notes are an integral part of these financial statements.



                                                             - 46 -
                                                     U. S. Department of Justice

                                                    Offices, Boards and Divisions

                                                Consolidated Statements of Net Cost

                                      For the Fiscal Years Ended September 30, 2012 and 2011

Dollars in Thousands

                                               Gross Costs                                             Less: Earned Revenues                                    Net Cost of
                         Intra­                With the                                        Intra-        With the                                           Operations
           FY         governmental              Public                   Total              governmental      Public                       Total                 (Note 15)



Goal 1     2012      $        99,284       $       282,552       $            381,836       $       87,077      $       29,042       $        116,119      $            265,717
           2011      $       112,985       $       265,340       $            378,325       $       93,776      $       22,433       $        116,209      $            262,116



Goal 2     2012            1,804,101             6,787,015                  8,591,116              529,236             395,064                924,300                  7,666,816
           2011            1,868,383             3,990,335                  5,858,718              575,651             426,958              1,002,609                  4,856,109



Goal 3     2012            1,808,388               665,148                  2,473,536              159,062              66,119                225,181                  2,248,355
           2011            1,736,875               705,044                  2,441,919              158,055              45,456                203,511                  2,238,408

Total      2012      $     3,711,773       $     7,734,715       $        11,446,488        $      775,375      $      490,225       $      1,265,600      $          10,180,888
           2011      $     3,718,243       $     4,960,719       $          8,678,962       $      827,482      $      494,847       $      1,322,329      $           7,356,633


Goal 1   Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
Goal 2   Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
Goal 3   Ensure and Support the Fair, Impartial, Efficent, and Transparent Administration of Justice at the Federal, State, Local, Tribal, and International Levels




                                                  The accompanying notes are an integral part of these financial statements.




                                                                                  - 47 -
                                    U. S. Department of Justice

                                   Offices, Boards and Divisions

                         Consolidated Statements of Changes in Net Position

                           For the Fiscal Year Ended September 30, 2012

Dollars in Thousands

                                                                                     2012
                                                            Earmarked              All Other
                                                              Funds                 Funds                Total
Unexpended Appropriations
  Beginning Balances                                    $         21,727       $      3,472,362     $    3,494,089

  Budgetary Financing Sources
    Appropriations Received                                       72,044              6,848,091           6,920,135
    Appropriations Transferred-In/Out                                  -                (28,074)            (28,074)
    Other Adjustments                                                  -                (40,561)            (40,561)
    Appropriations Used                                          (67,808)            (6,896,031)         (6,963,839)

  Total Budgetary Financing Sources                                 4,236              (116,575)          (112,339)

  Unexpended Appropriations                             $         25,963       $      3,355,787     $    3,381,750



Cumulative Results of Operations
  Beginning Balances                                    $        252,629       $         (56,544)   $      196,085

  Budgetary Financing Sources
    Other Adjustments                                                  -                (40,000)           (40,000)
    Appropriations Used                                           67,808              6,896,031          6,963,839
    Nonexchange Revenues                                           4,085                      -              4,085
    Transfers-In/Out Without Reimbursement                             -                109,395            109,395

  Other Financing Sources
    Transfers-In/Out Without Reimbursement                               -               (36,621)           (36,621)
    Imputed Financing from Costs Absorbed
        by Others (Note 16)                                        1,145                175,254            176,399
  Total Financing Sources                                         73,038              7,104,059          7,177,097

  Net Cost of Operations                                         (69,949)           (10,110,939)        (10,180,888)

  Net Change                                                        3,089            (3,006,880)         (3,003,791)

  Cumulative Results of Operations                      $        255,718       $     (3,063,424)    $    (2,807,706)

Net Position                                            $        281,681       $        292,363     $      574,044




                       The accompanying notes are an integral part of these financial statements.



                                                       - 48 -
                                   U. S. Department of Justice

                                  Offices, Boards and Divisions

                  Consolidated Statements of Changes in Net Position (continued)

                          For the Fiscal Year Ended September 30, 2011

Dollars in Thousands

                                                                                     2011
                                                            Earmarked              All Other
                                                              Funds                 Funds               Total
Unexpended Appropriations
  Beginning Balances                                    $         19,585       $      3,979,216     $   3,998,801

  Budgetary Financing Sources
    Appropriations Received                                       71,746              6,901,999          6,973,745
    Appropriations Transferred-In/Out                                  -               (187,823)          (187,823)
    Other Adjustments                                               (326)               (23,338)           (23,664)
    Appropriations Used                                          (69,278)            (7,197,692)        (7,266,970)

  Total Budgetary Financing Sources                                 2,142              (506,854)         (504,712)

  Unexpended Appropriations                             $         21,727       $      3,472,362     $   3,494,089



Cumulative Results of Operations
  Beginning Balances                                    $        171,475       $       (142,839)    $      28,636

  Budgetary Financing Sources
    Other Adjustments                                                  -                (26,000)          (26,000)
    Appropriations Used                                           69,278              7,197,692         7,266,970
    Nonexchange Revenues                                           1,070                      -             1,070
    Transfers-In/Out Without Reimbursement                             -                113,735           113,735

  Other Financing Sources
    Transfers-In/Out Without Reimbursement                               -               (53,304)         (53,304)
    Imputed Financing from Costs Absorbed
        by Others (Note 16)                                        1,365                220,246           221,611
  Total Financing Sources                                         71,713              7,452,369         7,524,082

  Net Cost of Operations                                            9,441            (7,366,074)        (7,356,633)

  Net Change                                                      81,154                  86,295          167,449

  Cumulative Results of Operations                      $        252,629       $         (56,544)   $     196,085

Net Position                                            $        274,356       $      3,415,818     $   3,690,174




                       The accompanying notes are an integral part of these financial statements.



                                                       - 49 -
                                              U. S. Department of Justice

                                            Offices, Boards and Divisions

                                    Combined Statements of Budgetary Resources

                               For the Fiscal Year Ended September 30, 2012 and 2011


Dollars in Thousands                                                                                                     2012               2011

Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                                                        $           814,323     $      929,953
   Recoveries of Prior Year Unpaid Obligations                                                                         224,583           206,483
   Other Changes in Unobligated Balance                                                                                 67,691            93,421
   Unobligated Balance from Prior Year Budget Authority, Net                                                         1,106,597         1,229,857
   Appropriations (discretionary and mandatory)                                                                      7,142,929         7,030,338
   Spending Authority from Offsetting Collections (discretionary and mandatory)                                      2,162,444         2,108,819
Total Budgetary Resources                                                                                 $    10,411,970         $   10,369,014

Status of Budgetary Resources:
   Obligations Incurred (Note 17)                                                                                    9,284,881         9,554,691
   Unobligated Balance, End of Period:
      Apportioned                                                                                                      861,850           554,020
      Unapportioned                                                                                                    265,239           260,303
   Total Unobligated Balance - End of Period                                                                         1,127,089           814,323
Total Status of Budgetary Resources:                                                                      $    10,411,970         $   10,369,014

Change in Obligated Balance:
   Obligated Balance, Net - Brought Forward, October 1
       Unpaid Obligations, Gross                                                                          $          4,564,149    $    4,874,461
       Less: Uncollected Customer Payments from Federal Sources                                                        816,547           794,774
           Total Obligated Balance, Net - Brought Forward, October 1                                                 3,747,602         4,079,687
   Obligations Incurred                                                                                              9,284,881         9,554,691
   Less: Outlays, Gross                                                                                              9,445,119         9,658,520
   Change in Uncollected Customer Payments from Federal Sources                                                        (24,183)          (21,773)
   Less: Recoveries of Prior Year Unpaid Obligations                                                                   224,583           206,483

   Obligated Balance, Net - End of Period
      Unpaid Obligations, Gross                                                                                      4,179,328         4,564,149
      Less: Uncollected Customer Payments from Federal Sources                                                         840,730           816,547
   Total Obligated Balance, Net - End of Period                                                           $      3,338,598        $    3,747,602

Budgetary Authority and Outlays, Net:
   Budgetary Authority, Gross (discretionary and mandatory)                                                          9,305,373         9,139,157
   Less: Actual Offsetting Collections (discretionary and mandatory)                                                 2,138,261         2,087,046
   Change in Uncollected Customer Payments from Federal Sources                                                        (24,183)          (21,773)
       (discretionary and mandatory)
   Budget Authority, Net (discretionary and mandatory)                                                    $      7,142,929        $    7,030,338

   Outlays, Gross (discretionary and mandatory)                                                           $          9,445,119    $    9,658,520
   Less: Actual Offsetting Collections (discretionary and mandatory)                                                 2,138,261         2,087,046
   Outlays, Net (discretionary and mandatory)                                                                        7,306,858         7,571,474
   Less: Distributed Offsetting Receipts                                                                             1,117,582           777,312
   Agency Outlays, Net (discretionary and mandatory)                                                      $      6,189,276        $    6,794,162



                                        The accompanying notes are an integral part of these financial statements.




                                                                       - 50 -
                                  U. S. Department of Justice

                                 Offices, Boards and Divisions

                          Combined Statements of Custodial Activity

                   For the Fiscal Years Ended September 30, 2012 and 2011

Dollars in Thousands                                                                            2012               2011
Revenue Activity
 Sources of Cash Collections
   Delinquent Federal Civil Debts as Required by the Federal
       Debt Recovery Act of 1986                                                  $      6,995,798       $   5,222,083
   Fines, Penalties and Restitution Payments - Criminal                                     39,750              38,255
   Miscellaneous                                                                                43                  59
       Total Cash Collections                                                            7,035,591           5,260,397
Disposition of Collections
    Transferred to Federal Agencies
         U.S. Department of Agriculture                                                   (105,670)             (96,346)
         U.S. Department of Commerce                                                        (3,746)              (5,103)
         U.S. Department of the Interior                                                  (129,015)             (29,959)
         U.S. Department of Justice                                                        (21,085)             (81,181)
         U.S. Department of Labor                                                           (9,175)                (736)
         U.S. Postal Service                                                                (7,675)              (4,362)
         U.S. Department of State                                                          (26,613)              (8,535)
         U.S. Department of the Treasury                                                  (917,662)            (130,778)
         Office of Personnel Management                                                   (157,714)             (58,144)
         Federal Communications Commission                                                    (310)             (14,727)
         Social Security Administration                                                       (921)              (2,726)
         Smithsonian Institution                                                                (8)                (190)
         U.S. Department of Veterans Affairs                                              (125,354)             (28,703)
         General Services Administration                                                  (130,087)             (88,447)
         Securities and Exchange Commission                                                   (411)                  (3)
         Federal Deposit Insurance Corporation                                                 (59)                 (71)
         Railroad Retirement Board                                                            (288)                (100)
         Tennessee Valley Authority                                                             (8)                   -
         Environmental Protection Agency                                                  (189,137)            (341,267)
         U.S. Department of Transportation                                                 (13,674)              (7,236)
         U.S. Department of Homeland Security                                              (66,585)             (66,843)
         Agency for International Development                                                 (511)             (22,233)
         Small Business Administration                                                      (6,371)             (10,447)
         U.S. Department of Health and Human Services                                   (1,283,167)          (2,001,923)
         National Aeronautics and Space Administration                                        (725)              (3,792)
         Export-Import Bank of the United States                                           (17,264)             (24,643)
         U.S. Department of Housing and Urban Development                               (1,129,547)             (11,099)
         National Archives & Records Administration                                            (29)                   -
         U.S. Department of Energy                                                          (3,313)              (2,093)
         U.S. Department of Education                                                      (14,452)             (55,431)
         Independent Agencies                                                              (63,619)             (67,264)
         Treasury General Fund                                                            (642,790)            (618,814)
         U.S. Department of Defense                                                       (217,607)            (173,894)
    Transferred to the Public                                                             (508,622)            (516,597)
    (Increase)/Decrease in Amounts Yet to be Transferred                                  (567,495)            (304,330)
    Refunds and Other Payments                                                            (512,825)            (364,312)
    Retained by the Reporting Entity                                                      (162,057)            (118,068)
Total Disposition of Collections                                                        (7,035,591)          (5,260,397)

Net Custodial Activity (Note 18)                                                  $                  -   $            -



                        The accompanying notes are an integral part of these financial statements.



                                                       - 51 -
                                   U.S. Department of Justice

                                 Offices, Boards and Divisions

                                Notes to the Financial Statements

                                       (Dollars in Thousands, Except as Noted)


Note 1. Summary of Significant Accounting Policies

A. Reporting Entity

  The Offices, Boards and Divisions (OBDs) are comprised of thirty-four enforcement, litigating and policy-
  making components with a variety of missions and programs. Included among these components are the
  following:

  Offices                                           Boards
  Office of the Attorney General                    U.S. Parole Commission

  Office of the Deputy Attorney General             Foreign Claims Settlement Commission

  Office of the Associate Attorney General

  Office of the Solicitor General                   Divisions

  Office of Legal Counsel                           Antitrust Division

  Office of Legislative Affairs                     Civil Division

  Office of Professional Responsibility             Civil Rights Division

  Office of Legal Policy                            Criminal Division

  Office of Public Affairs                          Environment and Natural Resources Division

  Office of the Pardon Attorney                     Tax Division

  Office of the Inspector General                   Justice Management Division (JMD)

  Community Relations Service                         (including the Working Capital Fund)

  Executive Office for U.S. Attorneys (EOUSA)       National Security Division

  U.S. Attorneys

  INTERPOL Washington

  Executive Office for Immigration Review

  Executive Office for U.S. Trustees (EOUST)

  Office of Information Privacy

  Office of Community Oriented Policing Services (COPS)

  Office of the Federal Detention Trustee

  Professional Responsibility Advisory Office

  Office on Violence Against Women

  Executive Office for Organized Crime Drug Enforcement Task Forces

  Office of Tribal Justice





                             These notes are an integral part of the financial statements.


                                                         - 52 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


B. Basis of Presentation

    These financial statements have been prepared from the books and records of the OBDs in accordance with
    United States generally accepted accounting principles issued by the Federal Accounting Standards Advisory
    Board (FASAB) and presentation guidelines in the Office of Management and Budget (OMB) Circular
    A-136, Financial Reporting Requirements. These financial statements are different from the financial reports
    prepared pursuant to OMB directives, which are used to monitor and control the use of the OBDs’ budgetary
    resources. To ensure that the OBDs financial statements are meaningful at the entity level and to enhance
    reporting consistency within the Department, Other Assets and Other Liabilities as defined by OMB Circular
    A-136 have been disaggregated on the balance sheet. These include Advances and Prepayments, Accrued
    Federal Employees’ Compensation Act (FECA) Liabilities, Custodial Liabilities, Accrued Payroll and
    Benefits, Accrued Annual and Compensatory Leave Liabilities, Contingent Liabilities, Radiation Exposure
    Compensation Act Liabilities, September 11th Victim Compensation Fund and Accrued Grant Liabilities.

C. Basis of Consolidation

    The consolidated/combined financial statements include all funds and programs under the OBDs control,
    with the exception of the Assets Forfeiture Fund and Seized Asset Deposit Fund, for which separate financial
    statements are prepared. All significant proprietary intra-entity transactions and balances have been
    eliminated in consolidation. The Statements of Budgetary Resources and Statements of Custodial Activity
    are combined statements for FYs 2012 and 2011, and as such, intra-entity transactions have not been
    eliminated. The consolidated financial statements do not include centrally administered assets and liabilities
    related to the Federal Government as a whole, such as General Services Administration (GSA) owned
    property and equipment and borrowings from the public by the U.S. Treasury (the Treasury), which may in
    part be attributable to the OBDs.

D. Basis of Accounting

   Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual basis,
   revenues are recorded when earned and expenses are recorded when incurred, regardless of when cash is
   exchanged. Under the budgetary basis, however, funds availability is recorded based upon legal
   considerations and constraints. As a result, certain line items on the proprietary financial statements may not
   equal similar line items on the budgetary financial statements.

   Custodial activity reported on the Combined Statements of Custodial Activity is prepared on the modified cash
   basis of accounting. Under the modified cash basis of accounting, receivables and payables are not accrued
   with exception of interest earned on invested funds. Receipts are recorded when received with the exception
   of interest, and disbursements are recorded when paid. Interest is recorded when earned, including
   accretion/amortization of investment discounts and premiums. Investments are stated at amortized cost.




                               These notes are an integral part of the financial statements.


                                                           - 53 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


E. Non-Entity Assets

  Non-entity assets are not available for use by the OBDs and consist of settlement funds and the related

  investment revenue and restricted undisbursed civil and criminal debt collections.


F. Fund Balance with U.S. Treasury and Cash

  Fund Balance with the Treasury represents primarily appropriated, revolving, and trust funds available to pay
  current liabilities and finance future authorized purchases. The OBDs do not, for the most part, maintain cash
  in commercial bank accounts. Certain receipts, however, are processed by commercial banks for deposit to
  individual accounts maintained at the Treasury. The Treasury, as directed by authorized Department
  accountable officers, processes cash receipts and disbursements.

G. Investments

   The EOUSA, EOUST, and Radiation Exposure Compensation Trust Fund (RECTF) are the only components
   with investment authority. RECTF had no investment activities during FY 2012 or 2011. Investments are
   reported on the Consolidated Balance Sheets at their net value, the face value plus or minus any unamortized
   premium and discount. Premiums and discounts are amortized over the life of the Treasury security. The
   interest method is used for the amortization of premium and discount of Treasury notes and the straight-line
   method is used for Treasury bills. Both EOUSA and EOUST intend to hold investments to maturity.
   Accordingly, no provision is made for unrealized gains or losses on these securities. The market value of the
   investments is the current market value at the end of the reporting period. It is calculated by using the “End of
   Day” price listed in the FedInvest Price File, which can be found on the Bureau of Public Debt website
   (http://www.fedinvest.gov).

H. Accounts Receivable

   Net accounts receivable include reimbursement and refund receivables due from federal agencies and the
   public. Generally, all receivables from federal agencies are considered fully collectible. An allowance for
   doubtful accounts is established (see Note 6) for receivables due from the public. An allowance for
   uncollectible accounts was established as of September 30, 2012 and 2011 for Chapter 11 accounts receivable
   reported by the EOUST. The methodology for calculating the allowance is determined by calculating the
   average of prior years’ net write-off amounts.

I. Inventory and Related Property

  Inventory consists of new and rehabilitated office furniture, including chairs, tables, credenzas, lamps and file
  cabinets, which are to be sold in normal operations of the OBDs. The value of new inventory is determined
  on the basis of acquisition cost. The value of rehabilitated inventory is determined on the basis of
  rehabilitation and transportation costs. As inventory is sold, expenses are recorded. The value of inventory on
  hand at year-end is based on the historical cost.



                               These notes are an integral part of the financial statements.


                                                           - 54 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


J. General Property, Plant and Equipment

   The GSA, which charges rent equivalent to the commercial rental rates for similar properties, provides
   buildings in which the OBDs operate. The Department does not recognize depreciation on buildings and
   equipment provided by the GSA.

   Personal property, excluding internal use software, is capitalized when the initial cost of acquiring the asset is
   $25 or more and the asset has an estimated useful life of two or more years.

   Internal use software is capitalized when developmental phase costs or enhancement costs are $500 or more
   and the asset has an estimated useful life of two or more years. Real property and leasehold improvements are
   capitalized when the initial cost of acquiring the asset is $100 or more, and the asset has an estimated useful
   life of two or more years. Depreciation is calculated using the straight-line method over the estimated useful
   lives of the assets, which, for most motor vehicles, equipment, and internal use software, range from
   3 to 12 years.

K. Advances and Prepayments

   Advances to government agencies represent amounts paid to government agencies that have not yet provided
   the service under reimbursement agreements for mission support services. Advances and Prepayments on the
   Consolidated Balance Sheets are comprised predominantly of COPS funds disbursed to grantees in excess of
   the total expenditures reported by those grantees. In addition, funds provided by COPS to the Office of
   Justice Programs (OJP) that have not yet been expended with grantees are included in Intragovernmental
   Other Assets on the Consolidated Balance Sheets. A nominal amount of the OBDs advance balance is
   comprised of funds advanced to the OBDs employees for meals and incidental expenses on official travel.

L. Liabilities

   Liabilities represent the amount of monies or other resources that are likely to be paid by the OBDs as the
   result of a transaction or event that has already occurred. However, no liability can be paid by a Department
   entity absent proper budget authority. Liabilities for which an appropriation has not been enacted are
   classified as liabilities not covered by budgetary resources, and there is no certainty that corresponding future
   appropriations will be enacted. Liabilities arising from other than contracts can be abrogated by the
   Government, acting in its sovereign capacity.

M. Accrued Grant Liabilities

   Generally, disbursements of grant funds are recognized as expenses at the time of disbursement. However,
   some grant recipients incur expenditures prior to initiating a request for disbursement based on the nature of
   the expenditures. The OBDs accrue a liability for expenditures incurred by grantees prior to receiving grant
   funds for expenditures. The amount to be accrued is determined through an analysis of historic grant
   expenditures.



                                These notes are an integral part of the financial statements.


                                                            - 55 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


N. Contingencies and Commitments

  The OBDs are involved in various administrative proceedings, legal actions, and claims. The balance sheet
  includes an estimated liability for those legal actions where management and the Chief Counsel consider
  adverse decisions “probable” and amounts are reasonably estimable. Legal actions where management and
  the Chief Counsel consider adverse decisions “probable” or “reasonably possible” and the amounts are
  reasonably estimable are disclosed in Note 13, Contingencies and Commitments. However, there are cases
  where amounts have not been accrued or disclosed because the amounts of the potential loss cannot be
  estimated or the likelihood of an unfavorable outcome is considered “remote”.

O. Annual, Sick, and Other Leave

  Annual and compensatory leave is expensed with an offsetting liability as it is earned and the liability is
  reduced as leave is taken. Each year, the balance in the accrued annual leave liability account is adjusted to
  reflect current pay rates. To the extent current or prior year appropriations are not available to fund annual
  and compensatory leave earned but not taken, funding will be obtained from future financing sources. Sick
  leave and other types of nonvested leave are expensed as taken.

P. Interest on Late Payments

  Pursuant to the Prompt Payment Act, 31 U.S.C. § 3901-3907, federal agencies must pay interest on payments
  for goods or services made to business concerns after the due date. The due date is generally 30 days after
  receipt of a proper invoice or acceptance of the goods or services, whichever is later.

Q. Retirement Plans

   With few exceptions, employees hired before January 1, 1984, are covered by the Civil Service Retirement
   System (CSRS) and employees hired on or after that date are covered by the Federal Employees Retirement
   System (FERS). For employees covered by CSRS, the OBDs contribute 7% of the employees’ gross pay for
   regular and 7.5% for law enforcement officers’ retirement. For employees covered by FERS, the OBDs
   contribute 11.9% of the employees’ gross pay for regular and 26.3% for law enforcement officers’ retirement.
   All employees are eligible to contribute to the Federal Thrift Savings Plan (TSP). For those employees
   covered by the FERS, a TSP account is automatically established, and the OBDs are required to contribute an
   additional 1% of gross pay to this plan and match employee contributions up to 4%. No contributions are
   made to the TSP accounts established by the CSRS employees. The OBDs do not report CSRS or FERS
   assets, accumulated plan benefits, or unfunded liabilities, if any, which may be applicable to their employees.
   Such reporting is the responsibility of the Office of Personnel Management (OPM). Statement of Federal
   Financial Accounting Standards (SFFAS) No. 5, Accounting for Liabilities of the Federal Government,
   requires employing agencies to recognize the cost of pensions and other retirement benefits during their
   employees’ active years of service. Refer to Note 16, Imputed Financing from Costs Absorbed by Others, for
   additional details.




                               These notes are an integral part of the financial statements.


                                                           - 56 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


R. Federal Employee Compensation Benefits

   The FECA provides income and medical cost protection to cover federal civilian employees injured on the
   job, employees who have incurred a work-related occupational disease, and beneficiaries of employees whose
   death is attributable to a job-related injury or occupational disease. The total FECA liability consists of an
   actuarial portion and an accrued portion, as discussed below.

   Actuarial Liability: The U.S. Department of Labor (DOL) calculates the liability of the Federal
   Government for future compensation benefits, which includes the expected liability for death, disability,
   medical, and other approved costs. The liability is determined using the paid-losses extrapolation method
   calculated over the next 37-year period. This method utilizes historical benefit payment patterns related to a
   specific incurred period to predict the ultimate payments related to that period. The projected annual benefit
   payments are discounted to present value. The resulting Federal Government liability is then distributed by
   agency. The Department’s portion of this includes the estimated future cost of death benefits, workers’
   compensation, medical, and miscellaneous costs for approved compensation cases for its employees. The
   Department’s liability is further allocated to the component reporting entities on the basis of actual payments
   made to the FECA Special Benefits Fund (SBF) for the three prior years as compared to the total
   Department’s payments made over the same period.

   The FECA actuarial liability is recorded for reporting purposes only. This liability constitutes an extended
   future estimate of cost that will not be obligated against budgetary resources until the fiscal year in which the
   cost is actually billed to the OBDs. The cost associated with this liability may not be met by the OBDs
   without further appropriation action.

   Accrued Liability: The accrued FECA liability owed to the DOL is the difference between the FECA benefits
   paid by the FECA SBF and the agency’s actual cash payments to the FECA SBF. For example, the FECA
   SBF will pay benefits on behalf of an agency through the current year. However, most agencies’ actual cash
   payments to the FECA SBF for the current fiscal year will reimburse the FECA SBF for benefits paid through
   a prior fiscal year. The difference between these two amounts is the accrued FECA liability.

S. Intragovernmental Activity

   Intragovernmental costs and exchange revenue represent transactions made between two reporting entities
   within the federal government. Costs and earned revenues with the public represent exchange transactions
   made between the reporting entity and a non-federal entity. The classification of revenue or cost as
   “intragovernmental” or “with the public” is defined on a transaction-by-transaction basis. The purpose of this
   classification is to enable the federal government to prepare consolidated financial statements, not to match
   public and intragovernmental revenue with costs incurred to produce public and intragovernmental revenue.




                                These notes are an integral part of the financial statements.


                                                            - 57 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


T. 	Revenues and Other Financing Sources

  The OBDs receive the majority of funding needed to support their programs through Congressional
  appropriations. They receive annual, multi-year, and no-year appropriations that may be used, within statutory
  limits, for operating and capital expenditures. Additional amounts are received for reimbursement services.

  Appropriations are reflected as a budgetary financing source entitled “Appropriations Used” on the
  Consolidated Statements of Changes in Net Position at the time goods and services are received.
  Appropriations are recorded in the year they are authorized on the Combined Statements of Budgetary
  Resources. Exchange revenues are recognized when earned, i.e., when services are rendered. The majority of
  intragovernmental services rendered by the OBDs entail legal and administrative activities provided to other
  Department bureaus and other government agencies. The OBDs also receive quarterly bankruptcy fees
  assessed against public debtors.

  Custodial revenues represent the investment interest income earned from the settlement funds held by the
  OBDs and federal civil and criminal collections. The custodial revenues are not retained by the OBDs and are
  therefore recorded as custodial liabilities. Refer to Note 18, Net Custodial Revenue Activity, for details.

  In addition, according to par. 31 of Federal Accounting Standards Advisory Board (FASAB) Interpretation 6,
  Accounting for Imputed Intra-Departmental Costs: An Interpretation of SFFAS 4 (Managerial Cost
  Accounting Concepts and Standards), the receiving entity of the imputed intra-departmental and inter­
  departmental costs recognizes the full cost of the goods and services that it receives. To the extent that
  reimbursement is less than full cost, the receiving entity should recognize the difference as a financing source.

U. 	Earmarked Funds

  SFFAS No. 27, Identifying and Reporting Earmarked Funds defines ‘earmarked funds’ as being financed by
  specifically identified revenues, often supplemented by other financing sources, which remain available over
  time. These specifically identified revenues and other financing sources are required by statute to be used for
  designated activities, benefits or purposes, and must be accounted for separately from the government’s
  general revenues. The three required criteria for an earmarked fund are:

       1.	 A statute committing the federal government to use specifically identified revenues and other
            financing sources only for designated activities, benefits or purposes;
       2. 	 Explicit authority for the earmarked fund to retain revenues and other financing sources not used in
            the current period for future use to finance the designated activities, benefits, or purposes; and
       3.	 A requirement to account for and report on the receipt, use, and retention of the revenues and other
            financing sources that distinguishes the earmarked fund from the government’s general revenues.

  The following OBDs funds meet the definition of an earmarked fund: U.S. Trustee System Fund and

  Antitrust Division.





                               These notes are an integral part of the financial statements.


                                                           - 58 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


V. Tax Exempt Status

   As an agency of the Federal Government, the OBDs are exempt from all income taxes imposed by any 

   governing body whether it be a federal, state, commonwealth, local, or foreign government.


W. Use of Estimates

   Accounting estimates are an integral part of the OBDs financial statements and were used, in part, to
   determine the reported amounts of assets and liabilities and the reported amounts of revenue and expenses
   during the reporting period. Estimates were based on management’s knowledge and experience about past,
   current, and future events. However, estimates are subjective in nature and actual results may differ from
   management’s judgments.

X. Reclassifications

    The FY 2011 financial statements were reclassified to conform to the FY 2012 Departmental and OMB
    financial statement presentation requirements. Changes to the presentation of the Combined and Combining
    Statements of Budgetary Resources were made, in accordance with guidance provided in OMB Circular
    A-136, Financial Reporting Requirements and as such, activity and balances reported on the FY 2011
    Combined and Combining Statement of Budgetary Resources have been reclassified to conform to the
    presentation in the current year. Certain other prior year amounts have also been reclassified to conform with
    the current year presentation. The reclassifications had no material effect on total assets, liabilities, net
    position, change in net position or budgetary resources as previously reported.

Y. Subsequent Events

   Subsequent events and transactions occurring after September 30, 2012 through the date of the auditors’
   opinion have been evaluated for potential recognition or disclosure in the financial statements. The date of the
   auditors’ opinion also represents the date that the financial statements were available to be issued.




                               These notes are an integral part of the financial statements.


                                                           - 59 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 2. Non-Entity Assets

The OBDs non-entity assets include assets related to custodial activity such as collections from delinquent federal
civil debts and criminal fines, penalties and restitution payments; and investments with the related interest
revenue.

As of September 30, 2012 and 2011
                                                                   2012                        2011
 Intragovernmental
     Fund Balance with U.S. Treasury                       $        1,234,024          $         666,572
     Investments, Net                                                  86,268                     86,225
       Total Intragovernmental                                      1,320,292                    752,797

     Total Non-Entity Assets                                        1,320,292                    752,797
     Total Entity Assets                                            5,295,337                  5,560,084
     Total Assets                                          $        6,615,629          $       6,312,881




                               These notes are an integral part of the financial statements.


                                                           - 60 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 3. Fund Balance with U.S. Treasury

As of September 30, 2012 and 2011
                                                                            2012                   2011
 Fund Balances
   Trust Funds                                                      $           12,129         $      23,606
   Special Funds                                                                17,623                14,533
   Revolving Funds                                                             507,278               418,627
   General Funds                                                             5,164,891             4,766,281
   Other Fund Types                                                                116                   116
       Total Fund Balances with U.S. Treasury                       $        5,702,037         $   5,223,163


 Status of Fund Balances
    Unobligated Balance - Available                                 $          861,850         $     554,020
    Unobligated Balance - Unavailable                                          265,239               260,303
    Obligated Balance not yet Disbursed                                      3,338,598             3,747,602
    Other Funds (With)/Without Budgetary Resources                           1,236,350               661,238
       Total Status of Fund Balances                                $        5,702,037         $   5,223,163

Annual and multi-year budget authority expires at the end of its period of availability. During the first through
the fifth expired years, the unobligated balance becomes unavailable and may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a legitimate or bona fide need
arising in the fiscal year for which the appropriation was made. The unobligated balance for no-year budget
authority may be used to incur obligations indefinitely for the purpose specified by the appropriation act. No-year
budget authority unobligated balances are still subject to the annual apportionment and allotment process.

Other Funds (With)/Without Budgetary Resources primarily represents the net effect of 1) investments in short-
term securities with budgetary resources, 2) resources temporarily not available pursuant to public law,
3) custodial liabilities, and 4) miscellaneous receipts.

Note 4. Cash and Monetary Assets

As of September 30, 2012 and 2011
                                                                            2012                   2011
 Cash
   Imprest Funds                                                    $                  46      $          46




                               These notes are an integral part of the financial statements.


                                                           - 61 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 5. Investments, Net

OBDs invest in market-based Treasury securities. Market-based Treasury securities are debt securities that the
U.S. Treasury issues to federal entities without statutorily determined interest rates. Although the securities are
not marketable, their terms (price and interest rates) mirror the terms of marketable Treasury securities.

The federal government does not set aside assets to pay future benefits or other expenditures associated with
EOUST earmarked funds. The cash receipts collected from the public for an earmarked fund are deposited in the
U.S. Treasury, which uses the cash for general government purposes. Treasury securities are issued to the
EOUST as evidence of its receipts. Treasury securities are an asset to the EOUST and a liability to the U.S.
Treasury. Because the EOUST and the U.S. Treasury are both parts of the government, these assets and
liabilities offset each other from the standpoint of the government as a whole. For this reason, they do not
represent an asset or a liability in the U.S. Government-wide financial statements. Treasury securities provide the
EOUST with authority to draw upon the U.S. Treasury to make future benefit payments or other expenditures.
When the EOUST requires redemption of these securities to make expenditures, the government finances those
expenditures out of accumulated cash balances, by raising taxes or other receipts, by borrowing from the public
or repaying less debt, or by curtailing other expenditures. This is the same way that the government finances all
other expenditures.


                                                                  Unamortized
                                                   Face             Premium            Interest       Investments,    Market
                                                   Value           (Discount)         Receivable          Net         Value
As of September 30, 2012
Intragovernmental
   Non-Marketable Securities
      Market Based                              $ 309,855         $          437      $         187   $ 310,479      $ 311,068

As of September 30, 2011
Intragovernmental
   Non-Marketable Securities
      Market Based                              $ 302,211         $            73     $         44    $ 302,328      $ 302,847




                                These notes are an integral part of the financial statements.


                                                            - 62 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 6. Accounts Receivable, Net

As of September 30, 2012 and 2011
                                                                           2012                   2011
 Intragovernmental
    Accounts Receivable                                            $           322,530        $     350,778
       Total Intragovernmental                                                 322,530              350,778

 With the Public
   Accounts Receivable                                                          78,301               70,269
   Allowance for Uncollectible Accounts                                        (11,808)             (11,183)
       Total With the Public                                                    66,493               59,086
       Total Accounts Receivable, Net                              $           389,023        $     409,864


The accounts receivable with the public consists in part of EOUST Chapter 11 quarterly fees in the amount of
$57,346 and $66,254 which have been billed and are due to the EOUST as of September 30, 2012 and 2011,
respectively.

Note 7. Inventory and Related Property, Net

As of September 30, 2012 and 2011
                                                                           2012                   2011
Inventory
    Inventory Purchased for Resale                                 $                106       $          106




                              These notes are an integral part of the financial statements.


                                                          - 63 -
                                   U.S. Department of Justice

                                 Offices, Boards and Divisions

                                Notes to the Financial Statements

                                       (Dollars in Thousands, Except as Noted)


Note 8. General Property, Plant and Equipment, Net

As of September 30, 2012                           Acquisition         Accumulated           Net Book      Useful
                                                     Cost              Depreciation           Value         Life

 Vehicles                                          $     10,669         $      (6,321)       $     4,348    5-7 yrs
 Equipment                                               40,968               (25,546)            15,422   5-12 yrs
 Leasehold Improvements                                 139,637               (98,952)            40,685      5 yrs
 Internal Use Software                                  124,177               (92,054)            32,123      3 yrs
 Internal Use Software in Development                     41,199                       -          41,199        n/a
 Total                                             $    356,650         $ (222,873)          $   133,777

As of September 30, 2011

 Vehicles                                          $     13,248         $      (9,161)       $     4,087    5-7 yrs
 Equipment                                               37,337               (26,821)            10,516   5-12 yrs
 Leasehold Improvements                                 119,489               (86,179)            33,310      5 yrs
 Internal Use Software                                   74,482               (46,141)            28,341      5 yrs
 Internal Use Software in Development                   203,848                     -            203,848        n/a
 Total                                             $    448,404         $ (168,302)          $   280,102

The OBDs purchased $36,171 and $71,818 of capitalized property from public sources as of September 30, 2012
and 2011, respectively. The OBDs purchased $24,122 and $25,973 of capitalized property from federal sources
as of September 30, 2012 and 2011, respectively.




                             These notes are an integral part of the financial statements.


                                                         - 64 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 9. Other Assets

As of September 30, 2012 and 2011
                                                                                 2012                    2011
 Intragovernmental
     Advances and Prepayments                                            $            79,029     $          95,294

Advances and Prepayments primarily represent funds provided by COPS to OJP that have not yet been expended
by grantees. COPS provides grants to tribal, state, and local law enforcement agencies to hire and train
community policing professionals, acquire and deploy cutting-edge crime-fighting technologies, and develop and
test innovative policing strategies. OJP provides grant accounting services on a reimbursable basis to COPS.

Note 10. Liabilities not Covered by Budgetary Resources

As of September 30, 2012 and 2011
                                                                                  2012                    2011
 Intragovernmental
    Accrued FECA Liabilities                                                 $           9,860       $           9,780
    Other Unfunded Employment Related Liabilities                                          372                     408
       Total Intragovernmental                                                          10,232                  10,188

 With the Public
   Actuarial FECA Liabilities                                                          56,121                51,746
   Accrued Annual and Compensatory Leave Liabilities                                  181,786               181,586
   Contingent Liabilities (Note 13)                                                     3,565                     -
   RECA Liabilities (Note 19)                                                         731,237               535,838
   September 11th Victim Compensation Fund (Note 19)                                2,766,400                     -
       Total With the Public                                                        3,739,109               769,170
       Total Liabilities not Covered by Budgetary Resources                         3,749,341                779,358
       Total Liabilities Covered by Budgetary Resources                             2,292,244              1,843,349
       Total Liabilities                                                     $      6,041,585        $     2,622,707




                              These notes are an integral part of the financial statements.


                                                          - 65 -
                                   U.S. Department of Justice

                                 Offices, Boards and Divisions

                                Notes to the Financial Statements

                                       (Dollars in Thousands, Except as Noted)


Note 11. Leases

The OBDs have no capital leases. The majority of the OBDs equipment leases are for copying machines and
computer equipment, which are reported as operating leases.

As of September 30, 2012

Future Noncancelable Operating Lease Payments Due

                                                                Land and                Machinery and
Fiscal Year                                                     Buildings                 Equipment         Total
   2013                                                       $           43            $        629    $           672
   2014                                                                    -                      91                 91
   2015                                                                    -                      82                 82
   2016                                                                    -                      78                 78
   2017                                                                    -                      78                 78
   After 2017                                                              -                      30                 30
    Total Future Noncancelable Operating
          Lease Payments                                      $              43         $        988    $       1,031




                             These notes are an integral part of the financial statements.


                                                         - 66 -
                                         U.S. Department of Justice

                                       Offices, Boards and Divisions

                                      Notes to the Financial Statements

                                           (Dollars in Thousands, Except as Noted)


Note 12. Other Liabilities

All Other Liabilities are current liabilities. Intragovernmental Other Liabilities consists of General Fund
proprietary receipts.

As of September 30, 2012 and 2011
                                                                              2012                    2011
Intragovernmental
    Employer Contributions and Payroll Taxes Payable                  $            31,819        $       30,877
    Other Post-Employment Benefits Due and Payable                                    414                   989
    Other Unfunded Employment Related Liabilities                                     372                   408
    Advances from Others                                                           15,817                50,816
    Liability for Clearing Accounts                                                 2,400                  (457)
    Other Liabilities                                                                 629                   959
       Total Intragovernmental                                                     51,451                83,592

With the Public
   Custodial Liabilities                                                          209,775               152,987
       Total Other Liabilities                                         $          261,226        $      236,579

Note 13. Contingencies and Commitments

                                       Accrued                    Estimated Range of Loss
                                       Liabilities                Lower           Upper
As of September 30, 2012
   Probable                       $             3,565         $       3,565         $         3,625
   Reasonably Possible                                               16,128                  18,653

As of September 30, 2011
   Probable                       $                   -       $           -         $             ­
   Reasonably Possible                                               39,580                  55,530




                                 These notes are an integral part of the financial statements.


                                                             - 67 -
                                                  U.S. Department of Justice

                                                Offices, Boards and Divisions

                                               Notes to the Financial Statements

                                                      (Dollars in Thousands, Except as Noted)


Note 14. Earmarked Funds

The United States Trustees supervise the administration of bankruptcy cases and private trustees in the Federal
Bankruptcy Courts. The Bankruptcy Judges, U.S. Trustees and Family Farmer Bankruptcy Act of 1986 (Public
Law 99–554) expanded the pilot trustee program to a 21 region, nationwide program encompassing 88 judicial
districts. This program collects user fees assessed against debtors, which offset the annual appropriation.

The Antitrust Division administers and enforces antitrust and related statutes. This program primarily involves
the investigation of suspected violations of the antitrust laws, the conduct of civil and criminal proceedings in the
federal courts, and the maintenance of competitive conditions. The Antitrust Division collects filing fees for pre-
merger notifications and retains these fees for expenditure in support of its programs.

As of September 30, 2012 and 2011
                                                                2012                                               2011
                                                                               Total                                             Total
                                          U.S. Trustees       Antitrust      Earmarked       U.S. Trustees       Antitrust     Earmarked
                                              Fund            Division         Funds             Fund            Division        Funds
Balance Sheet
Assets
   Fund Balance with U. S. Treasury       $     17,623    $       37,506     $    55,129     $     14,532    $       33,106    $    47,638
   Investments, Net                            224,210                 -         224,210          216,029                 -        216,029
   Other Assets                                 52,124             1,587     $    53,711           58,406             3,152         61,558
     Total Assets                         $    293,957    $       39,093     $   333,050     $    288,967    $       36,258    $   325,225

Liabilities
  Accounts Payable                        $      9,020    $        5,871     $    14,891     $      8,236    $        5,949    $    14,185
  Other Liabilities                             21,648            14,830          36,478           21,594            15,090         36,684
     Total Liabilities                    $     30,668    $       20,701     $    51,369     $     29,830    $       21,039    $    50,869
Net Position
  Unexpended Appropriations               $          -    $       25,963     $    25,963     $          -    $       21,727    $    21,727
  Cumulative Results of Operations             263,289            (7,571)        255,718          259,137            (6,508)       252,629
     Total Net Position                   $    263,289    $       18,392     $   281,681     $    259,137    $       15,219    $   274,356
     Total Liabilities and Net Position   $    293,957    $       39,093     $   333,050     $    288,967    $       36,258    $   325,225


For the Fiscal Years Ended September 30, 2012 and 2011
                                                                2012                                               2011
                                                                               Total                                             Total
                                          U.S. Trustees       Antitrust      Earmarked       U.S. Trustees       Antitrust     Earmarked
                                              Fund            Division         Funds             Fund            Division        Funds
Statement of Net Cost
   Gross Cost of Operations               $    227,203    $      156,773     $   383,976     $    234,356    $      162,760    $   397,116
   Less: Earned Revenue                        226,566            87,461         314,027          314,921            91,636        406,557
     Net Cost of Operations               $        637    $       69,312     $    69,949     $    (80,565)   $       71,124    $    (9,441)

Statement of Changes in Net Position
  Net Position Beginning of Period        $    259,137    $       15,219     $   274,356     $    176,675    $       14,385    $   191,060

  Budgetary Financing Sources                    4,085            72,044          76,129            1,070            71,420         72,490
  Other Financing Sources                          704               441           1,145              827               538          1,365
     Total Financing Sources                     4,789            72,485          77,274            1,897            71,958         73,855
  Net Cost of Operations                          (637)          (69,312)        (69,949)          80,565           (71,124)         9,441
  Net Change                                     4,152             3,173           7,325           82,462               834         83,296
  Net Position End of Period              $    263,289    $       18,392     $   281,681     $    259,137    $       15,219    $   274,356




                                           These notes are an integral part of the financial statements.


                                                                            - 68 -
                                                        U.S. Department of Justice

                                                      Offices, Boards and Divisions

                                                     Notes to the Financial Statements

                                                             (Dollars in Thousands, Except as Noted)


Note 15. Net Cost of Operations by Suborganization

For the Fiscal Year Ended September 30, 2012
                                                                  Suborganizations
                                             LA                 NLA          Earmarked                WCF              Eliminations           Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
   Gross Cost                          $        203,704 $          118,543 $                 - $         221,585 $          (161,996) $             381,836
   Less: Earned Revenue                          35,170             14,095                   -           228,850            (161,996)               116,119
   Net Cost of Operations                       168,534            104,448                   -            (7,265)                  -                265,717

Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
   Gross Cost                                 3,392,986          4,897,273            389,498            511,255            (599,896)             8,591,116
   Less: Earned Revenue                         576,724             99,905            319,549            528,018            (599,896)               924,300
   Net Cost of Operations                     2,816,262          4,797,368             69,949            (16,763)                  -              7,666,816

Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal and International Levels
   Gross Cost                                   183,526          2,114,777                   -           505,065            (329,832)             2,473,536
   Less: Earned Revenue                           1,017             32,372                   -           521,624            (329,832)               225,181
   Net Cost of Operations                       182,509          2,082,405                   -           (16,559)                  -              2,248,355

Net Cost of Operations                 $      3,167,305 $        6,984,221 $           69,949 $           (40,587) $                  - $        10,180,888



For the Fiscal Year Ended September 30, 2011
                                                                  Suborganizations
                                             LA                 NLA          Earmarked                WCF              Eliminations           Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law

   Gross Cost                          $        204,150 $          107,750 $                 - $          234,295 $         (167,870) $             378,325
   Less: Earned Revenue                          32,425             15,738                   -            235,916           (167,870)               116,209
   Net Cost of Operations                       171,725             92,012                   -             (1,621)                 -                262,116

Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

   Gross Cost                                 3,426,764          2,097,497            402,360             524,079           (591,982)             5,858,718
   Less: Earned Revenue                         554,587            100,497            411,801             527,706           (591,982)             1,002,609
   Net Cost of Operations                     2,872,177          1,997,000             (9,441)             (3,627)                 -              4,856,109

Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal and International Levels

   Gross Cost                                   196,324          2,079,673                   -            474,754           (308,832)             2,441,919
   Less: Earned Revenue                           2,068             32,236                   -            478,039           (308,832)               203,511
   Net Cost of Operations                       194,256          2,047,437                   -             (3,285)                 -              2,238,408

Net Cost of Operations                 $      3,238,158 $        4,136,449 $            (9,441) $          (8,533) $                  -   $       7,356,633

LA - Legal Activities provides for the legal activities of the U.S. Department of Justice,
      including the Antitrust, Civil, Civil Rights, Criminal, Environment and Natural Resources, and Tax Divisions.
NLA - Non Legal Administration provides the resources for the programs and operations of the Attorney General,
      the Deputy Attorney General, the Associate Attorney General, their immediate Offices,
      several senior policy offices, and certain activities of the Justice Management Division.
Earmarked - Funds identified as earmarked relate specifically to activities of the U.S. Trustees and Antitrust Division.
WCF - Working Capital Fund provides a centralized performance of common administrative services for the Department.




                                                  These notes are an integral part of the financial statements.


                                                                                   - 69 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 16. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-reimbursed and under-
reimbursed) portion of the full costs of goods and services received by the OBDs from a providing entity that is
not part of the Department of Justice. In accordance with SFFAS No. 30, Inter-Entity Cost Implementation
Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts, the material Imputed Inter-
Departmental financing sources recognized by the OBDs are the actual cost of future benefits for the Federal
Employees Health Benefits Program (FEHB), the Federal Employees’ Group Life Insurance Program (FEGLI),
the Federal Pension plans that are paid by other Federal entities, and any un-reimbursed payments made from the
Treasury Judgment Fund on behalf of the OBDs. The Treasury Judgment Fund was established by the Congress
and funded at 31 U.S.C. 1304 to pay in whole or in part the court judgments and settlement agreements
negotiated by the Department on behalf of agencies, as well as certain types of administrative awards.
Interpretation of Federal Financial Accounting Standards Interpretation No. 2, Accounting for Treasury Judgment
Fund Transactions, requires agencies to recognize liabilities and expenses when unfavorable litigation outcomes
are probable and the amount can be estimated and will be paid by the Treasury Judgment Fund.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing agencies recognize
the cost of pensions and other retirement benefits during their employees’ active years of service. SFFAS No. 5
requires OPM to provide cost factors necessary to calculate cost. OPM actuaries calculate the value of pension
benefits expected to be paid in the future, and then determine the total funds to be contributed by and for covered
employees, such that the amount calculated would be sufficient to fund the projected pension benefits. For
employees covered by CSRS, the cost factors are 29.8% of basic pay for regular, 50.9% law enforcement officers,
23.2% regular offset, and 45.2% law enforcement officers offset. For employees covered by FERS, the cost
factors are 13.7% of basic pay for regular and 29.7% for law enforcement officers.

The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, the cost of other retirement benefits, which include health and life insurance that are
paid by other Federal entities, must also be recorded.

For the Fiscal Years Ended September 30, 2012 and 2011
                                                                         2012                       2011
Imputed Inter-Departmental Financing
   Treasury Judgment Fund                                         $           13,021            $      40,864
   Health Insurance                                                          105,160                  112,517
   Life Insurance                                                                449                      452
   Pension                                                                    57,769                   67,778
      Total Imputed Inter-Departmental                            $          176,399            $     221,611

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost Accounting
Standards and Concepts, are the unreimbursed portion of the full costs of goods and services received by the
OBDs from another component in the Department. The OBDs do not have any imputed intra-departmental
financing sources that meet the reporting requirements of the Department.

                                These notes are an integral part of the financial statements.


                                                            - 70 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:
                                                                                                         Total
                                                                  Direct              Reimbursable    Obligations
                                                                 Obligations           Obligations     Incurred
For the Fiscal Year Ended September 30, 2012
    Obligations Apportioned Under
       Category A                                              $ 5,811,306             $ 2,279,666    $ 8,090,972
       Category B                                                1,199,096                  (5,187)     1,193,909
    Total                                                      $ 7,010,402             $ 2,274,479    $ 9,284,881

For the Fiscal Year Ended September 30, 2011
    Obligations Apportioned Under
       Category A                                              $ 5,909,049             $ 2,261,131    $ 8,170,180
       Category B                                                1,350,261                  34,250      1,384,511
    Total                                                      $ 7,259,310             $ 2,295,381    $ 9,554,691


The apportionment categories are determined in accordance with the guidance provided in, Part 4, “Instructions
on Budget Execution” of OMB Circular A-11, Preparation, Submission and Execution of the Budget. The
majority of the OBDs apportionments were under Category A, which represents resources apportioned for
calendar quarters. The apportionments for part of COPS were under Category B, which represents resources
apportioned for other time periods, activities, projects, objectives or for a combination thereof.




                               These notes are an integral part of the financial statements.


                                                           - 71 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not been actually
or constructively received. This amount includes any orders which may have been prepaid or advanced but for
which delivery or performance has not yet occurred.

As of September 30, 2012 and 2011
                                                                            2012                   2011
 UDO Obligations Unpaid                                             $        3,028,248         $    3,330,095
 UDO Obligations Prepaid/Advanced                                               79,793                 96,902
     Total UDO                                                      $        3,108,041         $    3,426,997


Permanent Indefinite Appropriations:

A permanent indefinite appropriation is open-ended as to both its period of availability (amount of time the
agency has to spend the funds) and its amount.

The Consolidated Appropriations Act, 2005, provided a permanent indefinite appropriation for the OBDs’
Radiation Exposure Compensation Act program beginning FY 2006.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated and that remains
available for obligation based on annual legislative requirements and other enabling authorities, unless otherwise
restricted. The use of unobligated balances is restricted based on annual legislation requirements and other
enabling authorities. Funds are appropriated on an annual, multi-year, and no-year basis. Appropriated funds
shall expire on the last day of availability and are no longer available for new obligations. Unobligated balances
in unexpired fund symbols are available in the next fiscal year for new obligations unless some restrictions had
been placed on those funds by law. Amounts in expired fund symbols are not available for new obligations, but
may be used to adjust previously established obligations.




                               These notes are an integral part of the financial statements.


                                                           - 72 -
                                        U.S. Department of Justice

                                      Offices, Boards and Divisions

                                     Notes to the Financial Statements

                                            (Dollars in Thousands, Except as Noted)


Note 17. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs. the Budget of the United States Government:

The reconciliation as of September 30, 2012 is not presented, because the submission of the Budget of the United
States Government (Budget) for FY 2014, which presents the execution of the FY 2012 Budget, occurs after
publication of these financial statements. The Department of Justice Budget Appendix can be found on the OMB
website (http://www.whitehouse.gov/omb/budget) and is available in early February 2013.

For the Fiscal Year Ended September 30, 2011
(Dollars in Millions)                                                                                   Distributed
                                                                     Budgetary         Obligations      Offsetting          Net
                                                                     Resources          Incurred         Receipts          Outlays

 Statement of Budgetary Resources (SBR)                             $     10,369       $      9,555     $       777    $       6,794

 Funds not Reported in Budget of the U.S.
    Expired Funds                                                            (173)                (4)             -               -
    Redistribution of Clearing Accounts and Certain                             -                  -           (446)            446
       Miscellaneous Receipts
    Special and Trust Fund Receipts
       Earnings on Investments, U.S. Trustees System                             -                 -              -               1
       Fees for Bankruptcy Oversight, U.S. Trustees System                       -                 -              -             267
       Payment from the General Fund, Radiation Exposure
          Compensation Trust Fund                                                -                 -              -              63
 Other                                                                           -                 -              -               2

 Budget of the United States Government                             $     10,196       $      9,551     $       331    $       7,573



The Other line includes reconciling items between the Federal Agencies Centralized Trial Balance System II
(FACTSII) and the SBR.

A reconciliation with the SF-133, Report on Budget Execution and Budgetary Resources, was performed and
explanations of differences were provided to OMB at the Department consolidated level.




                                  These notes are an integral part of the financial statements.


                                                              - 73 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 18. Net Custodial Revenue Activity

The Statement of Custodial Activity (SCA) presents the sources and disposition of non-exchange revenues
collected or accrued by the Department on behalf of other recipient entities. In accordance with SFFAS No. 7,
Accounting for Revenue and Other Financing Sources, non-exchange custodial collections should be measured
by the collecting entities, but should be recognized by the entities legally entitled to the revenue; therefore,
custodial collections and interest revenue are recognized on the SCA. The SCA is prepared on a modified cash
basis and represents two custodial accounts: (1) Debt Collection Management (DCM) and (2) French Bank Credit
Lyonnais and French company Artemis settlement fund.

Overall, the OBDs custodial collections totaled $7,035,591 and $5,260,397 for the fiscal years ended
September 30, 2012 and 2011, respectively. The custodial assets and liabilities are presented on the OBDs
balance sheet as $1,320,292 and $752,797, as of September 30, 2012 and 2011, respectively.

Debt Collection Management

The primary source of the Office of Debt Collection Management collections consists of civil litigated matters
(i.e., student loan defaults, health care fraud, etc.). DCM also processes certain payments on criminal debts as an
accommodation for the Bureau of Prisons (BOP), another component of the Department of Justice, and the Clerks
of the U.S. District Courts. The BOP aggregates collections of inmate criminal debt by correction facility, and
DCM sorts the collections by judicial district and disburses payments to the respective Clerks of the U.S. Court.
DCM also accepts wire transfers or other payments on a criminal debt if a Clerk of U.S. Court is unable or
unwilling to do so. In addition, other negligible custodial collections occur for interest, fines and penalties. DCM
is authorized to perform these actions through the OMB Circular A-129, Policies for Federal Credit Programs
and Non-Tax Receivables; “Section V. Delinquent Debt Collection-Referrals to the Department of Justice; A.
Referral for Litigation”.

French bank Credit Lyonnais and French company Artemis settlement fund

During FY 2004, the OBDs collected a total settlement fund of $560,000, of which French bank Credit Lyonnais
and French company Artemis paid $375,000 and $185,000, respectively. $110,000 of the French company
Artemis settlement fund was disbursed for compensation of benefits lost. In addition, during FY 2006, $385,473
(including $10,473 interest) of the French bank Credit Lyonnais settlement fund was disbursed for the civil
settlement cases. The remaining $75,000 was held in reserve pending the outcome of the French company
Artemis lawsuit. By court order, the OBDs were given the investment authority and the settlement funds must be
invested. The OBDs invest these funds with the U.S. Department of Treasury, Bureau of the Public Debt. In
accordance with court orders, the French bank Credit Lyonnais and French company Artemis settlement fund
disbursed earned interest to the public of $43 and $59, as of September 30, 2012 and 2011, respectively.




                                These notes are an integral part of the financial statements.


                                                            - 74 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 19. Compensation Funds

Radiation Exposure Compensation Act

On October 15, 1990, Congress passed the Radiation Exposure Compensation Act (RECA), 42 U.S.C. § 2210,
providing for compassionate payments to individuals who contracted certain cancers and other serious diseases as
a result of their exposure to radiation released during above-ground nuclear weapons tests or as a result of their
exposure to radiation during employment in underground uranium mines. Implementing regulations were issued
by the Department and published in the Federal Register on April 10, 1992, establishing procedures to resolve
claims in a reliable, objective, and non-adversarial manner, with little administrative cost to the United States or
to the person filing the claim. Revisions to the regulations, published in the Federal Register on March 22, 1999,
served to greater assist claimants in establishing entitlement to an award.

On July 10, 2000, the Radiation Exposure Compensation Act Amendments of 2000, P.L. 106-245, was enacted.
Some of the widespread changes include new claimant populations, additional compensable diseases, lower
radiation exposure thresholds, modified medical documentation requirements, and removal of certain disease
restrictions. Pursuant to the 2000 Amendments, the Department was directed to issue implementing regulations.
The Department published two related rulemakings in the Federal Register to implement the legislation.

Subsequent action by Congress required modification to those rulemakings. Therefore, the Department published
a “final” rule in the Federal Register on March 23, 2004, which went into effect on April 22, 2004.

There are now five categories of claimants: uranium miners, uranium millers, ore transporters, downwinders, and
on-site participants. Each category requires similar eligibility criteria: if claimants can demonstrate that they
contracted a compensable disease after working or residing in a designated location for a specified period of time,
they qualify for compensation.

The enactment of two pieces of legislation changed the funding sources for RECA claimants. The National
Defense Authorization Act for FY 2005 requires that RECA Section 5 claimants (uranium miners, millers, and
ore transporters) be paid out of the Department of Labor’s (Labor) Energy Employees Occupational Illness
Compensation Fund. The RECA Section 5 liability of $316,993 as of March 30, 2004, was transferred to Labor
during FY 2005. The RECA Fund began exclusively paying RECA Section 4 claimants (downwinders and on-
site participants) in FY 2005. The Consolidated Appropriations Act, 2005, contains language that made funding
for the RECA Trust Fund mandatory and indefinite beginning in FY 2006.

The OBDs recognized liabilities of $731,237 and $535,838 for estimated future benefits payable by the
Department as of September 30, 2012 and 2011, respectively, to eligible individuals under the Act through
FY 2023. The estimated liability is based on activity between FYs 2007 - 2012. Key factors in determining
future liability are trends in the number of claims filed, trends in the percentage of claims adjudicated, and trends
in the percentage of claims approved. These estimates are then discounted in accordance with the discount rates
set by the Office of Management and Budget.




                                These notes are an integral part of the financial statements.


                                                            - 75 -
                                     U.S. Department of Justice

                                   Offices, Boards and Divisions

                                  Notes to the Financial Statements

                                         (Dollars in Thousands, Except as Noted)


Note 19. Compensation Funds (continued)
         	

September 11th Victim Compensation Fund
Title II of The James Zadroga 9/11 Health and Compensation Act of 2010 (Zadroga Act) P.L. 111-347,
reactivates the September 11th Victim Compensation Fund of 2001 and requires a Special Master, appointed by
the Attorney General, to provide compensation to any individual (or a personal representative of a deceased
individual) who suffered physical harm or was killed as a result of the terrorist-related aircraft crashes of
September 11, 2001, or the debris removal efforts that took place in the immediate aftermath of those crashes.
The Zadroga Act amends the Air Transportation Safety and System Stabilization Act by among other things:
Expanding the geographic zone recognized as a 9/11 crash site and providing greater consistency with the World
Trade Center Health Program by adding additional forms of proof that may be used to establish eligibility.

The Zadroga Act requires that the total amount of federal funds paid for including compensation with respect to
claims filed on or after October 3, 2011, will not exceed $2,775,000. Furthermore, the total amount of federal
funds expended during the period from October 3, 2011, through October 3, 2016, may not exceed $875,000.
For fiscal year 2012, the Department of Justice received an appropriation of $200,000. Summarized financial
information about appropriated funds received, benefit payments disbursed and payable, and the Fund balance is
presented below:
        As of September 30, 2012
                                                                                                 2012
        Appropriated Funds Received                                                            $ 200,000

        Less:     Salaries and Expenses Disbursements                                              6,212
                  Total Disbursements                                                              6,212
        Total Fund Balance with Treasury                                                       $ 193,788


        Total Federal Funds available for September 11th Victim Compensation Fund              $ 2,775,000

        Less:	    Accounts Payable for Salaries and Expenses                                        2,388
                  Total Funded Liabilities                                                          2,388
                  Total Disbursements                                                               6,212
                  Total Funded Activities                                                           8,600
        Unfunded Liability for September 11th Victim Compensation Fund	                        $ 2,766,400




                               These notes are an integral part of the financial statements.


                                                           - 76 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
         Statement of Financing)

For the Fiscal Years Ended September 30, 2012 and 2011

                                                                                                  2012             2011
Resources Used to Finance Activities
  Budgetary Resources Obligated
   Obligations Incurred                                                                       $   9,284,881    $   9,554,691
   Less: Spending Authority from Offsetting Collections and Recoveries                            2,387,027        2,315,302
   Obligations Net of Offsetting Collections and Recoveries                                       6,897,854        7,239,389
   Less: Offsetting Receipts                                                                      1,117,582          777,312
   Net Obligations                                                                                5,780,272        6,462,077

 Other Resources
    Transfers-In/Out Without Reimbursement                                                          (36,621)         (53,304)
    Imputed Financing from Costs Absorbed by Others (Note 16)                                       176,399          221,611
    Net Other Resources Used to Finance Activities                                                  139,778          168,307
Total Resources Used to Finance Activities                                                        5,920,050        6,630,384

Resources Used to Finance Items not Part of the Net Cost of
 Operations
    Net Change in Budgetary Resources Obligated for Goods, Services,
      and Benefits Ordered but not Yet Provided                                                    319,387          374,626
    Resources That Fund Expenses Recognized in Prior Periods (Note 21)                                 (36)         (12,236)
    Budgetary Offsetting Collections and Receipts That do not
      Affect Net Cost of Operations                                                                808,008          446,582
    Resources That Finance the Acquisition of Assets                                               (60,293)         (97,791)
Total Resources Used to Finance Items not Part of the Net Cost
 of Operations                                                                                    1,067,066         711,181

Total Resources Used to Finance the Net Cost of Operations                                    $   6,987,116    $   7,341,565




                              These notes are an integral part of the financial statements.


                                                          - 77 -
                                    U.S. Department of Justice

                                  Offices, Boards and Divisions

                                 Notes to the Financial Statements

                                        (Dollars in Thousands, Except as Noted)


Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
         Statement of Financing) (continued)

For the Fiscal Years Ended September 30, 2012 and 2011


                                                                                                  2012             2011
Components of Net Cost of Operations That Will not Require
 or Generate Resources in the Current Period
    Components That Will Require or Generate Resources
     in Future Periods (Note 21)                                                              $    2,979,515   $    (43,907)

    Depreciation and Amortization                                                                   206,722          48,988
    Other                                                                                             7,535           9,987
Total Components of Net Cost of Operations That Will not Require or
 Generate Resources                                                                                 214,257          58,975

Total Components of Net Cost of Operations That Will not
  Require or Generate Resources in the Current Period                                              3,193,772         15,068

Net Cost of Operations                                                                        $   10,180,888   $   7,356,633




                              These notes are an integral part of the financial statements.


                                                          - 78 -
                                      U.S. Department of Justice

                                    Offices, Boards and Divisions

                                   Notes to the Financial Statements

                                          (Dollars in Thousands, Except as Noted)


Note 21. Explanation of Differences Between Liabilities not Covered by Budgetary Resources
         and Components of Net Cost of Operations Requiring or Generating Resources in
         Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is not certainty that budgetary
authority will be realized, such as the enactment of an appropriation, are considered liabilities not covered by
budgetary resources. These liabilities totaling $3,749,341 and $779,358 on September 30, 2012 and 2011,
respectively, are discussed in Note 10, Liabilities not Covered by Budgetary Resources. Decreases in these
liabilities result from current year budgetary resources that were used to fund expenses recognized in prior
periods. Increases in these liabilities represent unfunded expenses that were recognized in the current period.
These increases, along with the change in the portion of exchange revenue receivables from the public, which are
not considered budgetary resources until collected, represent components of current period net cost of operations
that will require or generate budgetary resources in future periods. The changes in liabilities not covered by
budgetary resources and receivables generating resources in future periods are comprised of the following:

For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                                    2012           2011
 Resources that Fund Expenses Recognized in Prior Periods
  Decrease in Accrued Annual and Compensatory Leave Liabilities                                 $          -   $    (1,534)
    Other
       Decrease in Contingent Liabilities                                                                -          (4,738)
       Decrease in Other Unfunded Employment Related Liabilities                                       (36)            (18)
       Decrease in RECA Liabilities                                                                      -          (5,946)
          Total Other                                                                                  (36)        (10,702)
          Total Resources that Fund Expenses Recognized in Prior Periods                        $      (36)    $   (12,236)

 Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
    Increase in Accrued Annual and Compensatory Leave Liabilities            $        200     $       -
    (Increase)/Decrease in Exchange Revenue Receivable from the Public              9,496       (46,146)
    Other
       Increase in Actuarial FECA Liabilities                                       4,375         1,724
       Increase in Accrued FECA Liabilities                                            80           515
       Increase in Contingent Liabilities                                           3,565             -
       Increase in RECA Liabilities                                               195,399             -
      Increase in September 11th Victim Compensation Fund                       2,766,400             -
         Total Other                                                            2,969,819         2,239
         Total Components of Net Cost of Operations That Will Require
            or Generate Resources in Future Periods                          $ 2,979,515      $ (43,907)

The decrease in Exchange Revenue Receivable from the Public varies from the balance sheet as a result of the
UST Fees Receivable which has no associated budgetary accounts.

                                These notes are an integral part of the financial statements.


                                                            - 79 -
This page intentionally left blank. 





           - 80 -
Required Supplementary Information

             Unaudited





             - 81 -
                                                                                                               U. S. Department of Justice

                                                                                                              Offices, Boards and Divisions

                                                                                                          Required Supplementary Information

                                                                                                      Combining Statements of Budgetary Resources

                                                                                                      For the Fiscal Year Ended September 30, 2012


         Dollars in Thousands                                                                                                       LA                 NLA                 Earmarked               WCF                 Combined


         Budgetary Resources:
             Unobligated Balance, Brought Forward, October 1                                                               $             275,921   $         209,541   $           21,203      $         307,658   $          814,323

             Recoveries of Prior Year Unpaid Obligations                                                                               105,924              54,009                     2,322             62,328               224,583
             Other Changes in Unobligated Balance                                                                                      (32,624)             (9,080)                                     109,395                67,691
             Unobligated Balance from Prior Year Budget Authority, Net                                                                 349,221             254,470                 23,525               479,381             1,106,597
             Appropriations (discretionary and mandatory)                                                                            3,193,898           3,693,730                295,301               (40,000)            7,142,929
             Spending Authority from Offsetting Collections (discretionary and mandatory)                                              631,943             151,618                108,235             1,270,648             2,162,444
         Total Budgetary Resources                                                                                         $        4,175,062      $    4,099,818      $         427,061       $     1,710,029     $      10,411,970

         Status of Budgetary Resources:
             Obligations Incurred                                                                                          $         3,789,357     $     3,741,632     $          391,746      $      1,362,146    $        9,284,881
             Unobligated Balance, End of Period:
                 Apportioned                                                                                                             234,451             302,380               35,238                289,781              861,850
                 Unapportioned                                                                                                           151,254              55,806                   77                 58,102              265,239
             Total Unobligated Balance - End of Period                                                                                   385,705             358,186               35,315                347,883            1,127,089
         Total Status of Budgetary Resources:                                                                              $        4,175,062      $    4,099,818      $         427,061       $     1,710,029     $      10,411,970

         Change in Obligated Balance:
             Obligated Balance, Net - Brought Forward, October 1
                 Unpaid Obligations, Gross                                                                                 $           934,002 $         3,201,696 $               39,748 $             388,703    $        4,564,149
                 Less: Uncollected Customer Payments from Federal Sources                                                              382,448             152,349                  4,016               277,734               816,547
                     Total Obligated Balance, Net - Brought Forward, October 1                                                         551,554           3,049,347                 35,732               110,969             3,747,602




- 82 -
             Obligations Incurred                                                                                                    3,789,357           3,741,632                391,746             1,362,146             9,284,881
             Less: Outlays, Gross                                                                                                    3,642,724           4,152,956                386,076             1,263,363             9,445,119
             Change in Uncollected Customer Payments from Federal Sources                                                              (21,785)             (2,098)               (12,274)               11,974               (24,183)
             Less: Recoveries of Prior Year Unpaid Obligations                                                                         105,924              54,009                  2,322                62,328               224,583

             Obligated Balance, Net - End of Period
                 Unpaid Obligations, Gross                                                                                               974,711         2,736,363                 43,096                425,158            4,179,328
                 Less: Uncollected Customer Payments from Federal Sources                                                                404,233           154,447                 16,290                265,760              840,730
             Total Obligated Balance, Net - End of Period                                                                  $             570,478   $    2,581,916      $          26,806       $         159,398   $       3,338,598

         Budgetary Authority and Outlays, Net:
             Budgetary Authority, Gross (discretionary and mandatory)                                                      $         3,825,841 $         3,845,348 $              403,536 $           1,230,648    $        9,305,373
             Less: Actual Offsetting Collections (discretionary and mandatory)                                                         610,158             149,520                 95,961             1,282,622             2,138,261
             Change in Uncollected Customer Payments from Federal Sources                                                              (21,785)             (2,098)               (12,274)               11,974               (24,183)
                (discretionary and mandatory)
             Budget Authority, Net (discretionary and mandatory)                                                           $        3,193,898      $    3,693,730      $         295,301       $         (40,000) $        7,142,929

             Outlays, Gross (discretionary and mandatory)                                                                  $         3,642,724     $     4,152,956     $          386,076      $      1,263,363 $           9,445,119

             Less: Actual Offsetting Collections (discretionary and mandatory)                                                         610,158             149,520                 95,961             1,282,622             2,138,261

             Outlays, Net (discretionary and mandatory)                                                                              3,032,566           4,003,436                290,115               (19,259)            7,306,858

             Less: Distributed Offsetting Receipts                                                                                           -              80,958                234,574               802,050             1,117,582

             Agency Outlays, Net (discretionary and mandatory)                                                             $        3,032,566      $    3,922,478      $          55,541       $     (821,309) $           6,189,276


         LA - Legal Activities provides for the legal activities of the U.S. Department of Justice,
                  including the Antitrust, Civil, Civil Rights, Criminal, Environment and Natural Resources, and Tax Divisions.
         NLA - Non Legal Administration provides the resources for the programs and operations of the Attorney General,
                  the Deputy Attorney General, the Associate Attorney General, their immediate Offices,
                  several senior policy offices, and certain activities of the Justice Management Division.
         Earmarked - Funds identified as earmarked relate specifically to activities of the U.S. Trustees and Antitrust Division.
         WCF - Working Capital Fund provides a centralized performance of common administrative services for the Department.
                                                                                                              U. S. Department of Justice

                                                                                                             Offices, Boards and Divisions

                                                                                                         Required Supplementary Information

                                                                                                     Combining Statements of Budgetary Resources

                                                                                                     For the Fiscal Year Ended September 30, 2011


         Dollars in Thousands                                                                                                       LA                 NLA                 Earmarked            WCF                 Combined


         Budgetary Resources:
             Unobligated Balance, Brought Forward, October 1                                                               $             233,698   $         411,540   $           20,859   $         263,856   $          929,953
             Recoveries of Prior Year Unpaid Obligations                                                                               128,668              73,951                  3,864                  -               206,483
             Other Changes in Unobligated Balance                                                                                      (15,946)             (4,367)                     -            113,734                93,421
             Unobligated Balance from Prior Year Budget Authority, Net                                                                 346,420             481,124                 24,723            377,590             1,229,857
             Appropriations (discretionary and mandatory)                                                                            3,168,165           3,597,942                290,231            (26,000)            7,030,338
             Spending Authority from Offsetting Collections (discretionary and mandatory)                                              613,937             101,145                 96,761          1,296,976             2,108,819
         Total Budgetary Resources                                                                                         $        4,128,522      $    4,180,211      $         411,715    $     1,648,566     $      10,369,014

         Status of Budgetary Resources:
             Obligations Incurred                                                                                          $         3,852,601     $     3,970,670     $          390,512   $      1,340,908    $        9,554,691
             Unobligated Balance, End of Period:
                 Apportioned                                                                                                             139,269             153,502                3,786             257,463              554,020
                 Unapportioned                                                                                                           136,652              56,039               17,417              50,195              260,303
             Total Unobligated Balance - End of Period                                                                                   275,921             209,541               21,203             307,658              814,323
         Total Status of Budgetary Resources:                                                                              $        4,128,522      $    4,180,211      $         411,715    $     1,648,566     $      10,369,014

         Change in Obligated Balance:
             Obligated Balance, Net - Brought Forward, October 1
                 Unpaid Obligations, Gross                                                                                 $           883,299 $         3,520,245     $           42,739 $          428,178    $        4,874,461
                 Less: Uncollected Customer Payments from Federal Sources                                                              328,080             174,307                  2,849            289,538               794,774
                     Total Obligated Balance, Net - Brought Forward, October 1                                                         555,219           3,345,938                 39,890            138,640             4,079,687
             Obligations Incurred                                                                                                    3,852,601           3,970,670                390,512          1,340,908             9,554,691




- 83 -
             Less: Outlays, Gross                                                                                                    3,673,230           4,215,266                389,640          1,380,384             9,658,520
             Change in Uncollected Customer Payments from Federal Sources                                                              (54,368)             21,957                 (1,167)            11,805               (21,773)
             Less: Recoveries of Prior Year Unpaid Obligations                                                                         128,668              73,951                  3,864                  -               206,483

             Obligated Balance, Net - End of Period
                 Unpaid Obligations, Gross                                                                                               934,002         3,201,696                 39,748             388,703            4,564,149
                 Less: Uncollected Customer Payments from Federal Sources                                                                382,448           152,349                  4,016             277,734              816,547
             Total Obligated Balance, Net - End of Period                                                                  $         551,554       $    3,049,347      $          35,732    $         110,969   $       3,747,602

         Budgetary Authority and Outlays, Net:
             Budgetary Authority, Gross (discretionary and mandatory)                                                      $         3,782,102 $         3,699,087     $          386,992 $        1,270,976    $        9,139,157
             Less: Actual Offsetting Collections (discretionary and mandatory)                                                         559,568             123,103                 95,594          1,308,781             2,087,046
             Change in Uncollected Customer Payments from Federal Sources                                                              (54,368)             21,957                 (1,167)            11,805               (21,773)
                (discretionary and mandatory)
             Budget Authority, Net (discretionary and mandatory)                                                           $        3,168,166      $    3,597,941      $         290,231    $         (26,000) $        7,030,338

             Outlays, Gross (discretionary and mandatory)                                                                  $         3,673,230     $     4,215,266     $          389,640   $      1,380,384    $        9,658,520

             Less: Actual Offsetting Collections (discretionary and mandatory)                                                         559,568             123,103                 95,594          1,308,781             2,087,046

             Outlays, Net (discretionary and mandatory)                                                                              3,113,662           4,092,163                294,046             71,603             7,571,474

             Less: Distributed Offsetting Receipts                                                                                           -              66,994                267,731            442,587               777,312

             Agency Outlays, Net (discretionary and mandatory)                                                             $        3,113,662      $    4,025,169      $          26,315    $     (370,984) $           6,794,162


         LA - Legal Activities provides for the legal activities of the U.S. Department of Justice,
                  including the Antitrust, Civil, Civil Rights, Criminal, Environment and Natural Resources, and Tax Divisions.
         NLA - Non Legal Administration provides the resources for the programs and operations of the Attorney General,
                  the Deputy Attorney General, the Associate Attorney General, their immediate Offices,
                  several senior policy offices, and certain activities of the Justice Management Division.
         Earmarked - Funds identified as earmarked relate specifically to activities of the U.S. Trustees and Antitrust Division.
         WCF - Working Capital Fund provides a centralized performance of common administrative services for the Department.
This page intentionally left blank. 





           - 84 -
Other Accompanying Information

           Unaudited





           - 85 -
This page intentionally left blank. 





           - 86 -
                             U. S. Department of Justice

                            Offices, Boards and Divisions

                          Other Accompanying Information

                           Combined Schedule of Spending

                    For the Fiscal Year Ended September 30, 2012


Dollars in Thousands                                                         2012

What Money is Available to Spend?



Total Resources                                                          $    10,411,970
Less: Amount Available but Not Agreed to be Spent                                861,850
Less: Amount Not Available to be Spent                                           265,239
Total Amounts Agreed to be Spent                                         $     9,284,881



How was the Money Spent?
Personnel Compensation and Benefits
               1100       Personnel Compensation                         $     2,464,773
               1200       Personnel Benefits                                     660,589
               1300       Former Personnel                                         5,490
               2100       Travel & Transportation of Persons                      87,347
               2200       Transportation of Things                                42,922
Contractual Services and Supplies
               2300       Rent, Communications, and Utilities                  1,191,524
               2400       Printing & Reproduction                                  6,433
               2500       Other Services                                       3,568,782
               2600       Supplies and Materials                                  39,293
Acquisition of Assets
               3100       Equipment                                                 186,438
               3200       Purchase and Improvements of Land/Structures               11,741
Grants and Fixed Charges
               4100       Grants                                               1,020,715
               4200       Special Payments                                       159,072
Total Spending                                                                 9,445,119
Amounts Remaining to be Spent                                                   (160,238)
Total Amounts Agreed to be Spent                                         $     9,284,881




                                             - 87 -
This page intentionally left blank.




           - 88 -
Appendix




- 89 -
This page intentionally left blank. 





           - 90 -
                                                                  APPENDIX


              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General (OIG) provided a draft of the
Independent Auditors’ Report on Internal Control over Financial Reporting to
the Offices, Boards and Divisions (OBDs). The OBDs’ response is
incorporated in the Independent Auditors’ Report on Internal Control over
Financial Reporting of this final report. The following provides the OIG
analysis of the response and summary of actions necessary to close the
report.

Recommendation Number:

1.	   Resolved. The OBDs concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the OBDs have updated the
      capitalization methodology to clarify the Department’s accounting
      policy related to the accounting treatment for internal use software
      (IUS) costs in light of the errors and related adjustments identified
      during the audit, including providing guidance as to the specific nature
      and types of IUS costs that should or should not be capitalized during
      the software development phase

2.	   Resolved. The OBDs concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the OBDs have implemented
      procedures to ensure that the UFMS PMO management have a
      complete and consistent understanding of the requirements that should
      govern compilation of internal use software cost data submitted for
      capitalization, including consideration of joint UFMS PMO and JMD
      Finance Staff training on the requirements of applicable generally
      accepted accounting principles.

3.	   Resolved. The OBDs concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the OBDs have implemented more
      thorough management review procedures over journal entries related
      to the recording of IUS costs and the capitalization of IUS assets,
      including routine reviews of the supporting documentation for the costs
      capitalized, to provide additional assurance that the recorded amounts
      are proper, accurate, and complete.




                                    - 91 -
